<html>
<title> - ENHANCING DHS' EFFORTS TO DISRUPT ALIEN SMUGGLING ACROSS OUR BORDERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  ENHANCING DHS' EFFORTS TO DISRUPT ALIEN SMUGGLING ACROSS OUR BORDERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON BORDER, MARITIME, AND
                        GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2010

                               __________

                           Serial No. 111-76

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
 64-702 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                     Henry Cuellar, Texas, Chairman
Loretta Sanchez, California          Candice S. Miller, Michigan
Jane Harman, California              Michael T. McCaul, Texas
Zoe Lofgren, California              Gus M. Bilirakis, Florida
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
Ann Kirkpatrick, Arizona             Lamar Smith, Texas
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Al Green, Texas                          Officio)
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Alison Northop, Staff Director
                          Nikki Hadder, Clerk
                Mandy Bowers, Minority Subcommittee Lead











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Border, 
  Maritime, and Global Counterterrorism..........................     1
The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     9
The Honorable Harry Mitchell, a Representative in Congress from 
  the State of Arizona:
  Prepared Statement.............................................    10

                               Witnesses

Mr. James A. Dinkins, Executive Associate Director, Homeland 
  Security Investigations, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Michael J. Fisher, Chief of the Border Patrol, U.S. Customs 
  and Border Protection, Department of Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Terry Goddard, Attorney General, State of Arizona:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Richard M. Stana, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Ms. Janice L. Kephart, Director of National Security Policy, 
  Center for Immigration Studies:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                             For The Record

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism:
  Statement of Jan Brewer, Governor, State of Arizona............     4

 
  ENHANCING DHS' EFFORTS TO DISRUPT ALIEN SMUGGLING ACROSS OUR BORDERS

                              ----------                              


                        Thursday, July 22, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Sanchez, 
Jackson Lee, Kirkpatrick, Pascrell, Green, and Miller.
    Also present: Representatives Mitchell and Dent.
    Mr. Cuellar [presiding]. This subcommittee will come to 
order. The Subcommittee on Border, Maritime, and Global 
Counterterrorism is meeting today to receive testimony on 
enhancing DHS' efforts to disrupt alien smuggling across our 
borders.
    Today, the subcommittee is examining a growing homeland 
security challenge--that is, alien smuggling across America's 
borders. In recent years, those of us living near our Nation's 
southern border have witnessed a troubling uptick in alien 
smuggling activities.
    Not unique to the south, human smuggling also occurs along 
our northern border, too. As a result, the Federal Government 
has sent more personal resources to secure our borders, and in 
response individuals seeking to enter the United States 
illegally have become increasingly dependent on alien smuggling 
to help them evade our law enforcement and gain entry into the 
country.
    As we have done more to secure our borders, alien smuggling 
organizations have increasingly become mobile, violent, and 
dangerous. They are now posing new threats to our law 
enforcement officials, our border communities, and the people 
they attempt to smuggle across our borders.
    Particularly troubling is the potential for those 
organizations to smuggle terrorists into our country. While the 
vast majority of individuals smuggled into the United States 
are economic migrants, the possibility exists that those who 
seek to do us harm might exploit those routes, with dire 
consequences for our Nation's security. Therefore, we are 
working to secure not just our land ports, but our maritime 
ports of entry and coastal waters as well.
    But tying up security on the smuggling routes is just one 
part of the bigger solution. Immigration and Customs 
Enforcement--ICE--Customs and Border Protection--CBP--and their 
Federal, State, and local partners have stepped up efforts to 
identify and disrupt alien smuggling organizations in recent 
years. Just this week Secretary Napolitano announced that DHS 
is deploying 100 additional ICE personnel and 300 more Border 
Patrol agents and CBP officers and new technology and aircraft 
to Arizona, which is a major area for alien smuggling.
    DHS is also initiating a program in Arizona to increase the 
prosecution of criminal aliens apprehended and for re-entering 
the United States illegally after prior removal. These kinds of 
prosecution efforts have been successful elsewhere along the 
border, and I am encouraged by their use in Arizona as well.
    The Obama administration also announced it would 
temporarily deploy 1,200 National Guard troops to the southern 
border beginning August 1 of this year. This program will 
provide additional support and surveillance to our border 
security efforts already under way. In doing so, it would 
strengthen our multi-layer approach to combat narcotics, 
weapons, bulk cash, and human smuggling along our border.
    These measures are encouraging, but much more remains to be 
done. As the Government Accountability Office found in a report 
being released in conjunction with today's hearing, DHS should 
better leverage its personnel and resources. We know ICE 
personnel, in particular, are increasingly stretched thin, 
which is an issue DHS and Congress need to address.
    GAO also recommends that ICE consider using additional 
financial investigative and seizure techniques to combat alien 
smuggling. Back when I was a member of the State legislature, I 
was the author of the legislation that would regulate in a 
different way the Casa de Cambios, the other places where they 
use as money exchange currency for businesses, as you know, 
where sometimes are involved in laundering illicit proceeds. 
So, I understand that in order to fight criminal organizations, 
often the best way is to go after their money.
    Finally, I would like to thank Chairman Thompson and 
Representative Harry Mitchell for requesting this important GAO 
report. Representative Mitchell recently introduced legislation 
to give ICE additional assets for forfeiture authority, and I 
applaud his leadership on this important issue.
    I appreciate our panel of witnesses for joining us today, 
and I look forward to your testimony.
    The Chairman now recognizes the Ranking Member of the 
subcommittee, the gentlelady from Michigan, Mrs. Miller, for an 
opening statement.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    I certainly welcome all of our witnesses as well, and I am 
delighted to be here this morning to examine the very important 
issue of how we would better combat alien smuggling along the 
southwest border, which is certainly a National security issue 
for our great Nation.
    However, I do think it is ironic that we are here today to 
examine efforts by the administration to combat alien 
smuggling, when actually this administration is suing the State 
of Arizona--we are shortly going to be hearing from the 
attorney general of that State--for protecting its residents 
from the effect of illegal immigration, which, of course, is 
cued largely by alien smuggling.
    Alien smuggling has gotten so bad in Arizona that the 
Bureau of Land Management has actually erected signs in the 
desert warning of the danger to the public of smuggling. Here 
is a picture of the sign. The sign reads, ``Danger: Public 
Warning--Travel Not Recommended--Active Drug and Human 
Smuggling Area. Visitors may encounter armed criminals and 
smuggling vehicles traveling at high rates of speed--high rates 
of speed. Stay away from trash, clothing, backpacks, and 
abandoned vehicles. If you see suspicious activity, do not 
confront. Move away and call 911.''
    This is a sign in America.
    One recent study actually found that illegal immigration 
costs American taxpayers $113 billion annually, and that is 
more than $1,100 per household across the entire Nation. That 
same study found that Arizona spends more, approximately $2.5 
billion annually, on costs associated with illegal immigration.
    I think what should concern us as much, if not more, are 
reports that aliens from special-interest countries that 
support terrorism may be using the same routes used by alien 
smugglers and drug traffickers to across our porous borders, 
after which they could disappear, of course, to plan or to 
execute attacks on our country.
    Mr. Chairman, I have asked the Governor of Arizona, Jan 
Brewer, if she could submit a statement for the record for our 
subcommittee, and I did receive one late yesterday afternoon. I 
have shared it with all the subcommittee Members. I would 
certainly ask unanimous consent to submit her entire statement 
for the record, without objection, hopefully.
    Mr. Cuellar. Without objection.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mrs. Miller. If I could, Mr. Chairman, read just a couple 
of excerpts from the Governor's statement to our subcommittee.
    ``I appreciate the opportunity to submit this statement on 
human smuggling to the House of Representatives Homeland 
Security Committee, Subcommittee on Border, Maritime, and 
Global Counterterrorism. This statement reveals why our 
Nation's porous southern border and illegal immigration are of 
such concern to me and should be of concern to every 
American.''
    I am just going through a couple of different sections of 
the Governor's comments. She said, ``I believe the time has 
come for the Federal Government to secure our southern border 
with Mexico and to ensure the preservation of not only 
Arizona's quality of life, but our Nation's sovereignty and 
security.
    ``The border region has become increasingly lawless, and 
concerns continue to grow about violence spilling over into our 
border communities and then further north into major 
metropolitan areas. Absent a significant improvement in border 
security and a firm commitment to enforce U.S. immigration 
laws, citizens throughout the Southwest--not just Arizona--have 
a legitimate right to be concerned about lawlessness and 
violence.''
    Another section of the Governor's statement says, 
``Recently, the Federal Bureau of Land Management posted new 
signs interior counties of Arizona----''
    Hold up the sign again, if you could.
    She is also referencing this sign.
    ``----warning residents not to access Federal lands due to 
criminal activity associated with the border. These warning 
signals to some--these warnings signal to some that we have 
handed over portions of sovereign U.S. territory to human 
smugglers and drug traffickers.
    ``This is an outrage. Instead of warning Americans to stay 
out of parts of our own country, we ought to be warning all 
international lawbreakers that they will be detained and 
prosecuted to the fullest extent of the law. We should also 
establish measures that stop illegal border crossings and put 
an end to crimes perpetrated on Americans by illegal aliens.''
    She also goes on to say, ``The lack of a secure border with 
Mexico also poses a National security threat to the United 
States, as it provides terrorists the opportunity to enter our 
country undetected. While the bulk of illegal immigrants being 
smuggled into the United States are from Mexico and Central and 
Latin American countries, others are from special-interest 
countries. And in a post-9/11 world, it is unconscionable that 
the Federal Government has not secured the international border 
with Mexico, and we face the possibility that terrorists 
looking to harm America could sneak into the U.S. through the 
Arizona desert.''
    Just a last comment from her statement, ``The Federal 
Government has failed to secure our international border with 
Mexico for decades. This neglect has fostered an environment 
that has led to the initial establishment and continued growth 
of human smuggling rings. The smuggling rings import illegal 
aliens to the United States.
    ``The smuggling rings themselves and an element of their 
human cargo can bring crime and violence to our communities and 
neighborhoods and create a financial burden on Government and 
taxpayers. If that were not enough, the unsecured border in 
Arizona leaves a gaping hole for terrorists to enter the United 
States undetected and do us harm.''
    The Governor completes her statement by saying, ``It is 
time for the Federal Government to do its job, secure the 
international border with Mexico, and put human smugglers out 
of business.''
    I think, Mr. Chairman, the entire country can appreciate 
the concerns of the Governor of Arizona for her citizens as 
well as all the Border States, who share similar challenges as 
well.
    I certainly look forward to hearing from our witnesses, and 
I would pledge my very strong support to work with the 
Chairman, our entire subcommittee, and the Congress to make 
sure that the Federal Government does in fact do its job and 
secure our borders and protect the homeland.
    Thank you very much. I yield back.
    Mr. Cuellar. Thank you very much.
    I thank the gentlewoman from Michigan for her opening 
statement.
    At this time the Chairman now recognizes the Chairman of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing to examine the Department of 
Homeland Security's effort to combat alien smuggling across 
America's borders.
    As you know, I recently visited Arizona, where I heard from 
residents about the need to do more to secure our borders and 
fight human smuggling and drug trafficking. I also received 
briefings from Border Patrol's Tucson sector leadership and met 
with Immigration and Customs Enforcement officials in Phoenix 
about the serious challenges they are facing.
    Representative Ann Kirkpatrick, a Member of this 
subcommittee, and I discussed ICE's special-agent-in-charge in 
Phoenix the rising threat posed by smuggling organizations. 
Representative Kirkpatrick has been a vocal advocate for 
combating smuggling and trafficking in her State. She also 
highlighted a very troubling effect these criminal 
organizations are having even in cities not located directly on 
the border, such as Phoenix.
    I thank her for her leadership and look forward to 
continuing to work with her on these important issues.
    I left Arizona with an even better appreciation for the 
magnitude of the concerns facing border residents and the 
challenges facing Federal and State law enforcement officials 
in the region. In recognition of these challenges, Secretary 
Napolitano recently announced regarding sending additional CBP 
and ICE personnel, and assets to Arizona, is welcome news.
    I look forward to hearing more about how these resources 
will be utilized, how long they will deployed, and what the 
long-term plan is for addressing border security needs in the 
area.
    Regarding the GAO report being released today, it is 
apparent that much work remains to be done in addressing 
smuggling. I am especially concerned about GAO's finding that 
ICE is not making the best use of its personnel to investigate 
alien smuggling organizations. According to GAO, ICE 
investigators are doing immigration enforcement work that would 
be better suited to detention officers, leaving investigators 
less time to conduct activities related to addressing criminal 
organizations.
    Given our finite border security resources, it is 
imperative that ICE examine how we can better allocate its 
personnel to address these recommendations. I am also 
interested in hearing about whether additional resources or 
authorities are necessary for ICE to carry out their mission.
    While DHS has made some progress on alien smuggling since 
GAO's last report on that topic in 2005, it is clear that much 
still remains to be done. I hope GAO will be able to share with 
us the developments they have observed over the last 5 years 
and that ICE and CBP will speak to the department's plans going 
forward.
    At the State level, Arizona has been particularly affected 
by alien smuggling organizations in recent years. The Arizona 
attorney general's office and its law enforcement partners have 
achieved impressive results combating alien smuggling 
organizations by going after their money. Federal and State law 
enforcement agencies should be encouraged to work together to 
identify and implement measures to address alien smugglers. 
Hopefully, today's hearing offers an opportunity to further 
that important effort.
    In closing, I would like to thank Representative Harry 
Mitchell for working so diligently with me on this GAO request. 
He knows these issues well, given his efforts to assist the 
communities in his district. I am pleased that he will be with 
us today and will be able to share his valuable insight with 
the subcommittee.
    Thank you for the witnesses for joining us, and I look 
forward to your testimony.
    Mr. Cuellar. Thank you very much, Mr. Chairman, for your 
opening statement.
    Mrs. Miller. Yes, Mr. Chairman, if I could, I would ask 
unanimous consent that the gentleman from Pennsylvania, Mr. 
Dent, would be permitted to sit and question the witnesses at 
today's hearing.
    Mr. Cuellar. Without objection.
    Mrs. Miller. Thank you.
    Mr. Cuellar. At this time I also ask unanimous consent to 
have the gentleman from Arizona, Mr. Harry Mitchell, to be 
permitted to sit and question the witnesses at today's hearing 
without objection.
    So, Mr. Dent.
    Then, Mr. Mitchell, if you want to join us up here.
    Other Members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Hon. Mitchell follows:]
               Prepared Statement of Hon. Harry Mitchell
                             July 22, 2010
    Thank you, Mr. Chairman, and thank you Ranking Member Miller, and 
all the Members of this subcommittee for permitting me to join you here 
today.
    I also want to thank Chairman Thompson, without whose help, today's 
GAO Report and today's hearing about it would not have been possible.
    I want to extend a warm welcome to Arizona's attorney general, who 
has taken time from his very busy schedule to join us here today. 
Attorney General Goddard has not just been a leader in the fight 
against Mexican drug cartels, he's been an innovator, and we will hear 
more about his important efforts shortly.
    Finally, I want to thank the extremely hard-working team at GAO, 
whose dedication and attention to detail have resulted in key findings 
and recommendations that we will be examining today.
    Arizona continues to pay a heavy price for the Federal Government's 
failure to secure the border and fix our broken immigration system. 
Arizona has been especially hard hit. More than half the illegal 
crossings across the U.S.-Mexico border happen in our State.
    But this isn't just a crisis for communities along the border. This 
is a crisis in the interior--in places like Phoenix, where smugglers 
and Mexican cartels have set up vast networks of drop houses, which 
operate as way stations for criminal smuggling enterprises.
    It has been estimated that there may be as many as 1,000 such drop 
houses in the Phoenix metropolitan area alone.
    The crime associated with these drop houses is brutal and alarming. 
Phoenix now experiences upwards of 300 kidnappings a year.
    I had the opportunity to visit a drop house just this past weekend, 
and I saw where smugglers had kept victims behind barred doors and 
windows while they extorted money for their release. I also visited 
another home in the same neighborhood, the site of a drug-cartel 
kidnapping, where smugglers had begun digging a grave for one of their 
captives, right there inside the house.
    These violent thugs put innocent, law-abiding citizens at risk as 
well, when fights between rival cartels over smuggled cargo devolve 
into gunfire.
    And these drop houses are everywhere. Living in an upscale 
neighborhood doesn't immunize you from the threat.
    That's why, back in February of 2008, I asked the GAO to 
investigate ICE's efforts to shut down these drop houses and stop the 
illegal smuggling. It has taken 2.5 years for the GAO to complete this 
investigation, but I am pleased that we finally have the results, which 
are instructive, and I hope that both ICE and Members of this committee 
will take note.
    Two findings, I think, are particularly important. First, the GAO 
notes that there continues to be a Federal loophole that precludes the 
use of civil forfeiture to seize homes that are used as drop houses. 
According to GAO, its staff visited one ICE investigative office which 
contained a huge map showing over 300 drop houses in the surrounding 
area. ICE officials complained, however, that they had only been able 
to seize one of these houses, and that civil asset forfeiture authority 
would have made it easier to seize far more of them.
    I firmly believe we need to close this loophole, and that is why 
earlier this week Rep. Bilbray and I introduced a bipartisan bill--the 
Stop the Drop Houses Act, H.R. 5769--to do so.
    Second, the GAO recommends that ICE look into the investigative 
techniques used by an Arizona Attorney General task force which has 
seized millions of dollars and disrupted alien smuggling operations by 
following cash transactions flowing through money transmitters like 
Western Union. The task force has established methods for identifying 
suspicious, smuggling-related wire transfers and disrupting them.
    Moreover, under the terms of a major settlement Attorney General 
Goddard reached earlier this year with Western Union, Western Union has 
agreed to provide Arizona and other border States with unprecedented 
access to data on wire transfers along the border, including locations 
in Mexico.
    Since the settlement, the other money wire companies have 
voluntarily agreed to provide Attorney General Goddard's office with 
their data as well.
    This data, combined with the methods developed by Attorney General 
Goddard's task force, could be a huge help to Federal immigration 
enforcement, and I agree with the GAO that the ICE ought to examine all 
of this, and its potential for use at the Federal level.
    There are, of course, other important findings in this report, but 
I will stop here.
    I look forward to hearing more today from the GAO, Attorney General 
Goddard, ICE, and the rest of today's witnesses.
    At this time I yield back.

    Mr. Cuellar. I welcome our panel of witnesses at this time. 
Our first witness is Mr. James Dinkins. He is the executive 
associate director for homeland security investigations at ICE. 
Mr. Dinkins has direct oversight over ICE investigative and 
enforcement initiatives and operations targeting cross-border 
criminal organizations that exploit America's legitimate 
travel, trade, financial, immigration systems for illicit 
purposes. Mr. Dinkins, of course, manages a budget over $2 
billion and is responsible for strategic planning.
    We look forward to working with you. I believe you have 
been a law enforcement career, and it started off in 1986 with 
the U.S. Customs Service.
    Our second witness----
    Again, welcome.
    Our second witness is Chief Michael Fisher--again, it is 
always a pleasure seeing you again--named chief of Border 
Patrol on May 7 of this year, serves as the Nation's highest-
ranking Border Patrol agent and directs the enforcement efforts 
of more than 20,000 Border Patrol agents responsible for 
patrolling our Nation's border between the ports of entry.
    Prior to his appointment he served as the chief border 
patrols there in San Diego, the San Diego sector, and first 
started his duty along the southwest border in 1987 in Douglas, 
Arizona.
    So again, welcome very much today, Mr. Fisher.
    Third witness is the attorney general for the State of 
Arizona, who has been the attorney general since 2003, Mr. 
Terry Goddard. As the State's top law enforcement officer, he 
is focused on reducing crime and taking action against illegal 
trafficking in drugs and arms and money and human beings, 
recently received the prestigious Kelley-Wyman award, the 
highest honor of the National Association of Attorney Generals.
    Prior before becoming attorney general, you were elected 
mayor of Phoenix for four times from 1984 to 1990. Again, we 
want to welcome you here today, Mr. Attorney General.
    Our fourth witness is Mr. Richard Stana, who is the 
director of the homeland security justice issues of the 
Government Accountability Office. He has been with us several 
times.
    We thank you and GAO for the work that you all are doing.
    He started his 33-year career with GAO, served in 
headquarters, field overseas offices, and has a wide 
understanding of the complex special military and domestic 
issues and recently directed the GAO's work related to 
immigration and border security issues. Again, he has received 
many GAO awards throughout his career, including the 
distinguished service award in 2005.
    Mr. Stana, again, thank you very much. We appreciate what 
you and the GAO does--the work that you all do.
    Our fifth witness is Ms. Janice Kephart, who is the 
director of national security at the Center for Immigration 
Studies.
    Thank you very much for being here with us.
    She was a border and I.D. security expert, who served 
counsel to the 9/11 Commission and was a key author of the 
Staff Monograph ``9/11 Terrorist Travel'' as well as the 
immigration-related facts and recommendations in the 9/11 
Commission report.
    Prior to 9/11 she was responsible for conducting 
investigations in counterterrorism issues and conducting 
oversight of the Immigration Naturalization Service as a 
counsel to the Senate Judiciary Subcommittee on Technology and 
Terrorism.
    We want to welcome you and all the witnesses here.
    Without objection, the witnesses' full statements will be 
inserted in the record, and I will ask the witnesses to 
summarize their statements for 5 minutes.
    We will begin with Mr. Dinkins.

 STATEMENT OF JAMES A. DINKINS, EXECUTIVE ASSOCIATE DIRECTOR, 
HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
          ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Dinkins. Chairman Cuellar, Chairman Thompson, and 
Ranking Member Miller and other distinguished Members of the 
subcommittee, on behalf of Secretary Napolitano and Assistant 
Secretary Morton, I thank you for this opportunity to discuss 
ICE's efforts in combating human smuggling. DHS as a department 
is at the forefront of this issue, and I am proud to be here 
today alongside Chief Fisher from the Office of Border Patrol 
to discuss this important issue.
    Let there be no question about the commitment of ICE to 
ensuring that our borders are secured from transnational 
threats, and let there be no question of our commitment to 
combating the illegal flow of guns, drugs, as well as 
individuals coming here to do us harm in the United States.
    Over the past several years, we have seen human smuggling 
organizations become more violent. There has been an increase 
in hostage-taking, extortion, use of firearms, and deadly 
rollover vehicle accidents involving smuggled aliens. To 
illustrate the disregard smuggling organizations often have for 
human life, I would like to provide you with a recent case 
example that initiated right here in the D.C. area.
    The case started when the Fairfax County Police Department 
of Virginia received a frantic call from a woman stating that 
she had been contacted by smugglers, who had taken her brother 
hostage and were threatening to kill him. The woman explained 
that they were torturing her brother over the phone and 
demanded that she pay additional monies for his release.
    ICE special agents in Washington, DC, were contacted, and 
their investigation led them to Houston, Texas. As a result of 
extensive coordination between special agents in Washington, 
DC, and Houston, and within 36 hours after receiving the 
initial information, our special agents obtained and executed 
search warrants with the assistance of Harris County Sheriff's 
Office in Texas. As a result we rescued the woman's brother and 
10 other hostages, all of whom had been brutally assaulted.
    While human smuggling is often linked to the southwest 
border, it impacts communities throughout our country. For 
example, in February we dismantled a Houston area illicit 
transportation network that provided smuggling organizations 
with domestic transportation services for undocumented aliens. 
Transportation routes originated in the Houston area, but 
extended throughout the country.
    Named Operation Night Moves, this investigation 
successfully dismantled the transportation network, resulting 
in 24 criminal arrests, the seizure of 18 firearms, four bank 
accounts, 32 vehicles, and over $44,000 in U.S. currency.
    Smuggling routes are constantly changing and requires 
Government law enforcement from ICE and domestic international 
partners to coordinate. One excellent example of our 
collaborative efforts with law enforcement partners is 
Operation In Plain Sight. This operation was the most 
comprehensive human smuggling investigation in ICE's history 
and dismantled the infrastructure of some of Arizona's most 
prolific and profitable human smuggling organizations.
    The enforcement action involved more than 800 agents, 
officers from nine Federal, State, and local law enforcement 
agencies, as well as dozens of law enforcement personnel in 
Mexico. It involved coordinating the enforcement operations on 
both sides of the border, resulting in 61 criminal arrests, 
more than 500 administrative arrests, and the seizure of 
approximately 94 vehicles and $80,000 in U.S. currency.
    ICE also confronts human smuggling organizations in 
partnerships with CBP and our law enforcement partners through 
our Border Enforcement Security Task forces. We currently have 
17 BESTs, including 10 on the southwest border. I can assure 
you the BEST model is highly successful.
    For example, between October 2008 and June 2010, the BESTs 
initiated over 390 human smuggling investigations Nation-wide, 
resulting in over 580 criminal arrests and over 360 convictions 
to date.
    ICE is committed to combating human smuggling. Our efforts 
are part of a comprehensive strategy that focuses on securing 
the borders through identification, disruption, and 
dismantlement of cross-border criminal organizations.
    Mr. Chairman and Representative Miller, on behalf of the 
men and women at ICE, I thank you for your commitment to border 
security and for your unwavering support of ICE's mission, and 
I look forward to answering any questions you may have.
    [The statement of Mr. Dinkins follows:]
                 Prepared Statement of James A. Dinkins
                             July 22, 2010
                              introduction
    Chairman Cuellar, Ranking Member Miller, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Assistant 
Secretary Morton, I would like to thank you for the opportunity to 
discuss U.S. Immigration and Customs Enforcement's (ICE) efforts to 
investigate, disrupt, and dismantle criminal organizations engaged in 
human smuggling.
    ICE's mission revolves around combating the cross-border smuggling 
of humans and a wide range of contraband including drugs, guns, and 
currency. ICE is the primary agency investigating human smugglers and 
smuggling organizations that frequently put the lives of aliens at 
risk, take hostages, and extort fees. Through our investigations, ICE 
aims to systematically disrupt and dismantle the international and 
domestic operations of criminal travel networks, identify and seize 
assets and illicit proceeds, as well as identify systemic 
vulnerabilities that could be exploited by criminal organizations to 
undermine our legitimate immigration system and border controls. The 
men and women of ICE accomplish the agency's mission by investigating a 
wide range of domestic and international criminal activities arising 
from the illegal movement of people, money, and goods within the United 
States, at our Nation's borders, and beyond our borders in 
collaboration with our international law enforcement partners.
Human Smuggling Generally
    Human smuggling into the United States constitutes a significant 
risk to our National security and public safety. Human smuggling 
pipelines serve as conduits for undocumented aliens seeking unlawful 
entry into the United States. The smuggling of criminal aliens and gang 
members has a destabilizing impact on neighborhoods and communities 
across the United States. Moreover, these smuggling pipelines could 
potentially be exploited by terrorist and other extremist organizations 
seeking entry to the United States.
    The investigation of human smuggling presents unique enforcement 
challenges. Human smuggling organizations are primarily based in 
foreign countries and depend on loose, but highly effective, 
transnational alliances. These alliances involve various operators, 
such as recruiters, brokers, document providers, transporters, and 
corrupt foreign officials, to exploit vulnerabilities in our and other 
nations' immigration and border controls. Recognizing these threats, 
ICE is committed to aggressive, innovative, and proactive 
investigations designed to identify, disrupt, and dismantle human 
smuggling organizations.
    Over the past several years, human smuggling organizations have 
become more violent when interacting with smuggled aliens. There has 
been an increase in hostage-taking incidents, incidents of extortion by 
force or by threat of harm, use of firearms by human smugglers, and 
deadly roll-over vehicle accidents involving smuggled aliens. These 
developments are part of a disturbing trend and underscore the reason 
that ICE is aggressively combating these smuggling organizations.
    Worldwide, the international criminal market is very lucrative for 
human smuggling organizations.\1\ Profits are often generated outside 
of the United States and are laundered and invested in legitimate 
business enterprises that are then used to fuel additional criminal 
activity such as the trafficking of drugs, weapons, or other 
contraband. Moreover, these substantial profits feed organized crime 
activities, undermining governmental action and the rule of law.
---------------------------------------------------------------------------
    \1\ Human smuggling and trafficking in persons are distinct crimes. 
Human trafficking involves the use of force, fraud, or coercion for the 
purpose of forced labor or commercial sexual exploitation. While human 
trafficking victims may be smuggled into the United States, United 
States citizens, permanent residents, and others may be exploited by 
trafficking organizations. Human trafficking organizations exploit 
their victims in order to produce long-term profits for their criminal 
organizations.
---------------------------------------------------------------------------
    The Department of State estimates that at any given time, there are 
hundreds of thousands of people around the world in the smuggling 
pipeline whose primary destination is the United States, and who are 
being warehoused by smugglers waiting for new routes to open up or for 
documents to become available.
ICE Human Smuggling Operations
    In addition to the security and law enforcement implications, human 
smuggling presents real costs in human suffering. To illustrate the 
disregard smugglers often have for human life, I would like to provide 
you with a few recent case examples, each with a nexus to the 
Washington, DC metropolitan area, and each emphasizing that the effects 
of human smuggling are felt thousands of miles beyond the Southwest 
border.
    In January 2009, ICE special agents in Phoenix contacted their 
counterparts in Washington, DC to request assistance in locating a 
caller who had contacted the DHS Tipline to report a hostage situation 
in the Phoenix area. Smuggled aliens are often held hostage in ``drop 
houses'' in border regions while the smugglers use threats, or actual 
violence, against them to extort additional fees out of their family 
members in the interior of the United States. In this case, ICE special 
agents in Washington located the caller, who was a family member of the 
individual being held, and obtained evidence through the use of 
innovative investigative methodologies, that enabled agents in Phoenix 
to locate a residence at which 21 individuals were being held hostage. 
As a result of this joint investigative effort, the hostages were 
rescued and six smugglers were arrested and charged with Federal alien 
smuggling offenses.
    In August 2009, the Fairfax County, Virginia Police Department 
received a frantic call from a woman stating that she had been 
contacted by smugglers who were holding her brother hostage and 
threatening to kill him. The woman explained that they were torturing 
her brother over the phone to ensure she knew they were serious, and 
were demanding that she provide money to cover his smuggling fees. ICE 
special agents in Washington became involved and verified that the 
telephone calls were being made from the Houston area. As a result of 
extensive coordination between agents in Washington and Houston, which 
involved the use of sophisticated technical investigative techniques, 
ICE special agents obtained and executed a search warrant with the 
assistance of the Harris County, Texas Sheriff's Office within 36 
hours. This led to the rescue of the woman's brother and 10 other 
hostages, all of whom had been brutally assaulted. ICE's investigative 
efforts also led to the arrest of three individuals on Federal charges 
of alien smuggling and hostage taking.
    In May 2010, a representative from the Embassy of El Salvador in 
Washington contacted ICE special agents to report that three children 
were being held hostage in the Phoenix area, and that the parents 
resided in Washington. ICE special agents immediately responded and, 
working with the parents to gain vital information, initiated a 
criminal investigation to rescue the hostages. Through quick action and 
collaboration between agents in Washington and Phoenix, the three 
children and 16 additional aliens being held hostage were located and 
rescued in Arizona. As a result of ICE's investigation, three 
individuals were arrested on Federal charges of alien smuggling and 
hostage taking.
    As these cases illustrate, smugglers often show a callous disregard 
for the lives in their charge. ICE's strategies, legal authorities, and 
innovative methodologies have proven effective in identifying, 
disrupting, and dismantling the international criminal networks engaged 
in human smuggling. Last February, ICE completed a major investigation 
known as ``Operation Night Moves,'' which targeted Houston-area 
transportation businesses that used vans and SUVs to provide smuggling 
organizations with domestic transportation services for undocumented 
aliens. The transportation routes originated in the Houston area and 
extended to destination cities throughout the country. These 
transportation companies often bought aliens from smuggling 
organizations, and then charged the aliens additional fees to be 
delivered to their final destinations. The companies operated under the 
guise of legitimacy in order to avoid scrutiny. Operation Night Moves 
dismantled the Houston-based transportation network resulting in 24 
criminal arrests, 209 administrative arrests, the seizure of 18 
firearms, 4 bank accounts, 32 vehicles, and over $44,000 in U.S. 
currency.
    ICE also manages several initiatives designed to attack illicit 
smuggling organizations and the profits they generate. As part of ICE's 
``Cornerstone'' initiative, our financial investigators partner with 
members of the financial and trade sectors. Through this initiative, 
ICE helps identify and eliminate vulnerabilities in their sectors that 
transnational criminal organizations--including human smuggling 
organizations--may seek to exploit to earn, move, and store their 
criminal proceeds. To date, the Cornerstone initiative has resulted in 
the initiation of over 800 criminal investigations, yielding over 300 
arrests and the seizure of over $160 million. In March 2010, ICE also 
launched Project STAMP (Smugglers' and Traffickers Assets, Monies, and 
Proceeds), a concerted law enforcement project to: (1) Attack 
organizations involved in human smuggling and trafficking from an 
aggressive anti-money laundering stance; and (2) seize assets that are 
crucial to shutting down entrenched criminal activity.
ICE's International Presence
    While human smuggling is often linked to the Southwest border, 
smuggling is, by definition, an international crime and not confined to 
any geographic region. The complexity of this problem demands a closely 
coordinated, comprehensive, and proactive international and domestic 
strategy. To that end, ICE has developed a full range of investigative 
and enforcement methodologies to confront the threat at every turn--in 
source and transit countries, at sea, at our Nation's borders, and 
throughout the United States.
    Human smuggling takes place within a complex global environment of 
political and economic relationships. Smuggling networks often exploit 
border controls and immigration policies of source and transit 
countries to move individuals toward the United States. These routes 
are constantly changing and evolving based on political, economic, and 
law enforcement activities in source and transit countries, requiring 
an agile law enforcement response from ICE. To target these smuggling 
methods and routes, ICE and the Department of Justice formed the 
Extraterritorial Criminal Travel (ECT) Strike Force in June 2006.
    This initiative combines investigative, prosecutorial, and 
intelligence resources to target and aggressively pursue, disrupt, and 
dismantle foreign-based criminal travel networks--particularly those 
involved in the movement of aliens from countries of National security 
concern. Through our network of Attaches located in U.S. embassies 
around the world, we work in close coordination with the Department of 
State and our foreign law enforcement counterparts to coordinate these 
complex international investigations.
    The ECT Strike Force program is a critical component of ICE's 
strategy to build a layered defense by combating human smuggling 
organizations as far from the U.S. border as possible, and by 
preventing the arrival of unlawful migrants, thereby expanding our zone 
of security. ECT Strike Force-designated investigations are 
intelligence-driven, and support the principles and vision outlined by 
National security experts cited in reports such as the 9/11 Commission 
Report, the National Counterterrorism Center's National Strategy to 
Combat Terrorist Travel, and the Migration Policy Institute's 
Countering Terrorist Mobility Report.
    ICE recognizes the importance of conducting transnational human 
smuggling investigations in order to identify and counter the threat 
these organizations pose to the United States. To that end, ICE is 
collaborating with the Department of Justice to explore ways to enhance 
and expand the ECT program to best leverage our collective resources to 
proactively identify, disrupt and dismantle emerging human smuggling 
pipelines as far from the borders of the United States as possible. The 
success of these investigations is predicated on close coordination 
between ICE domestic and Attache offices, the Department of Justice, 
other U.S. Government agencies, and our foreign government partners, 
particularly their law enforcement and prosecutorial agencies. ICE is 
committed to devoting resources and continually improving internal 
efficiencies to ensure that the ECT program is effective in targeting 
the most significant transnational human smuggling threats to the 
United States.
    A recent example of ICE's efforts to address this threat is the 
December 2009 arrest of a major maritime smuggler, based in Colombia, 
responsible for the movement of many East Africans destined to the 
United States. This arrest was the result of on-going cooperation 
between Colombian authorities, ICE special agents in Bogota, Colombia 
and Washington, DC, and the Department of Justice. The target of this 
investigation was recently convicted by the Colombian government and 
has been sentenced to 90 months imprisonment for violations related to 
human smuggling, document fraud, and conspiracy. This investigation 
exemplifies the impact of ICE's international investigative approach to 
human smuggling, and the critical role played by ICE Attache offices.
    There is a significant amount of information and intelligence 
available on human smuggling organizations that indicate that they 
operate in a coordinated fashion by using a large number of criminal 
associates, contacts, and facilitators along established smuggling 
routes into the United States, Europe, South Africa, and other 
developed countries. A coordinated response is imperative to ICE's 
ability to effectively identify, disrupt, and dismantle these criminal 
operations and organizations.
Collaboration with International Partners
    Combating international crime requires that we collaborate with 
international partners. One example of this collaboration is 
``Operation In Plain Sight,'' an investigation targeting Arizona 
transportation companies involved in the smuggling and transportation 
of aliens throughout Arizona and the rest of the United States. This 
operation, which was the most comprehensive human smuggling 
investigation in ICE's history, disrupted the infrastructure of some of 
Arizona's most prolific and profitable human smuggling organizations 
that were attempting to hide behind a veil of legitimacy.
    The enforcement action, involving more then 800 agents and officers 
from nine Federal, State, and local law enforcement agencies was the 
culmination of a comprehensive, multi-year investigation that expanded 
well beyond its initial focus on several Tucson-based shuttle 
companies. The investigation was an example of ICE's unprecedented 
cooperation with Mexican law enforcement authorities, and implicated 
high-level members of human smuggling organizations in Phoenix, Tucson, 
Nogales, and northern Mexico that were serviced by the transportation 
network. The operation ultimately resulted in 61 criminal arrests, more 
than 541 administrative arrests, the execution of 32 search warrants, 
and the seizure of approximately 94 smuggling vehicles and nearly 
$80,000 in U.S. currency. This investigation significantly disrupted 
the ability of human smuggling organizations to operate in southern 
Arizona.
Border Enforcement Security Task Forces (BESTs)
    ICE also confronts human smuggling organizations in partnership 
with U.S. Customs and Border Protection (CBP) and our State, local, and 
Federal law enforcement partners through the ICE-led Border Enforcement 
Security Task Forces (BESTs). BEST is a law enforcement model, which 
recognizes that confronting the multifaceted threat of cross-border 
criminal activity requires sharing resources, information, and 
expertise. BESTs serve as a platform from which interagency and 
international partners can work together to address all aspects of 
cross-border crime. The BESTs that currently exist on our land borders 
and in major maritime port cities incorporate personnel from ICE, CBP, 
the Drug Enforcement Administration, the Bureau of Alcohol, Tobacco, 
Firearms and Explosives, the Federal Bureau of Investigation, the U.S. 
Coast Guard, and the U.S. Attorney's Offices, along with other key 
Federal, State, local, and foreign law enforcement agencies. ICE 
currently has a total of 17 BESTs, including 10 on the Southwest 
border. Our BESTs in El Paso and Phoenix have specifically dedicated 
investigative groups focusing on the disruption and dismantlement of 
human smuggling organizations, in order to address the threats posed by 
human smugglers in these high-threat smuggling corridors.
    The BEST model has been highly successful. ICE, with the help of 
our law enforcement partners, has disrupted smuggling operations in 
both the United States and Mexico. From October 2008 through June 2010, 
the BESTs have initiated 396 human smuggling investigations Nation-wide 
resulting in 582 criminal arrests, 291 indictments, and 361 
convictions.
                               conclusion
    ICE agents are working tirelessly to identify, disrupt, and 
dismantle smuggling organizations that subvert the rule of law, violate 
our immigration system, destabilize our communities through violence 
and fear, and threaten our National security. The initiatives and 
investigations that I have mentioned today are only a few of the many 
in which ICE has been involved throughout the past year. ICE commits 
substantial resources to address the threat posed by human smuggling.
    Working in close coordination with our partners, our efforts are 
part of a comprehensive strategy that focuses on securing the border, 
taking down the infrastructure that supports smuggling, and identifying 
and seizing the illicit profits from these crimes. ICE is dedicated and 
committed to this mission and we look forward to working with this 
subcommittee and the full committee on these efforts.
    Thank you once again for the opportunity to appear before you 
today. I would be pleased to answer any questions that you may have at 
this time.

    Mr. Cuellar. Mr. Dinkins, thank you again very much for 
your testimony.
    The Chairman now recognizes Chief Fisher to summarize his 
statement for 5 minutes.

  STATEMENT OF MICHAEL J. FISHER, CHIEF OF THE BORDER PATROL, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Chief Fisher. Thank you. Chairman Cuellar, Chairman 
Thompson, Ranking Member Miller and distinguished Members of 
the committee, it is indeed a privilege and an honor to appear 
before you today to discuss U.S. Customs and Border 
Protection's efforts concerning alien smuggling on our Nation's 
border.
    As America's front-line border agency, CBP's priority 
mission is to protect the American public while facilitating 
lawful trade and travel. To do this, CBP has deployed a multi-
layered, risk-based approach to enhance the security of the 
people and goods entering the United States.
    This layered approach to security reduces our reliance on 
any single point or program that could be compromised. It also 
extends Arizona's security outward, making sure that our 
physical border is not the first or last line of defense, but 
one of many.
    CBP's layered approach to security relies on a combination 
of manpower, technology, infrastructure and a new way of 
thinking. Personnel provide a rapid response capability by 
being able to deploy agents to address threats. Tactical 
infrastructure supports response by providing access to the 
Border Patrol or extending the time that agents have to respond 
by delaying criminals. Technology allows us to detect entries 
and to identify and classify those threats.
    Now, over the past few, we have significantly strengthened 
each of these three major elements--personnel, technology, and 
infrastructure. Currently, we have over 20,000 Border Patrol 
agents Nation-wide, more than ever before in the history of 
this country.
    As of July 1 of this year, we have constructed nearly all 
of the fencing that Congress has requested us to build. We have 
completed 646 miles, with about 5 miles to be completed this 
year along the southwest border.
    We have greatly improved our technological profile, 
purchasing and deploying 41 mobile surveillance systems--those 
are the MSSs--which provide added radar and camera coverage 
along our borders, with plans to purchase additional off-the-
shelf technology this year and next.
    CBP also recently received approval to increase the miles 
of airspace available for unmanned aircraft system operations 
performed by the Office of Marine Division within CBP, which 
would enable CBP to deploy UASs from the eastern tip of 
California, extending east across the border into Texas.
    We have significant results to show for these initiatives. 
During the first months of fiscal year 2010, CBP seized nearly 
2.8 million pounds of drugs, encountered arrested over 520,000 
inadmissible and illegal aliens, and seized more than $64 
million in currency. Compared to previous years, CBP has seen 
an overall apprehensions of illegal aliens decrease 
significantly from our highest point, over 1 million 
apprehensions just 10 years ago.
    We are not, however, resting on these successes. Alien 
smuggling is one of the many enduring challenges along the 
southwest border that CBP continues to combat. Along our 
Nation's borders, CBP has the primary responsibility to attack 
these challenges in ways that are smart, tough, and strategic. 
Defeating transnational criminal organizations that smuggle 
aliens and drugs is a top priority for CBP, and we continue to 
develop effective strategies to disrupt and dismantle their 
organizations and distribution networks.
    I want to thank you again for this opportunity, and I look 
forward to your questions.
    [The statement of Chief Fisher follows:]
                Prepared Statement of Michael J. Fisher
                             July 22, 2010
                              introduction
    Chairman Cuellar, Ranking Member Miller, and distinguished Members 
of the committee, it is a privilege and an honor to appear before you 
today to discuss U.S. Customs and Border Protection's (CBP) efforts 
concerning alien smuggling along our Nation's borders. I am Michael J. 
Fisher, Chief of the United States Border Patrol.
    As America's frontline border agency, CBP's priority mission is to 
protect the American public, while facilitating lawful travel and 
trade. To do this, CBP has deployed a multi-layered, risk-based 
approach to enhance the security of the people and goods entering the 
United States. This layered approach to security reduces our reliance 
on any single point or program that could be compromised. It also 
extends our zone of security outward, making sure that our physical 
border is not the first or last line of defense, but one of many.
    CBP's layered approach to security relies on a combination of 
manpower, technology, and infrastructure to confront transnational 
criminal organizations. Personnel provides a rapid response capability 
by being able to deploy agents, as needed, to address vulnerabilities. 
Tactical infrastructure supports response by providing access to the 
Border Patrol, or extending the time that agents have to respond by 
delaying criminals. Technology allows us to detect entries and to 
identify and classify threats.
    Over the past year, we have significantly strengthened each of the 
three major elements--manpower, infrastructure, and technology. 
Currently we have over 20,000 Border Patrol Agents Nation-wide, more 
than ever before in the history of the country. As of July 1, 2010, we 
have constructed nearly all of the fencing that Congress has requested 
us to build--we have completed 646 miles along the southwest border, 
with about 5 miles to be completed this year. We have greatly improved 
our technological profile, purchasing and deploying 41 mobile 
surveillance systems (MSSs) to provide added radar and camera coverage 
along the borders, among other technologies, with plans to purchase 
additional off-the-shelf technology in fiscal year 2010 and fiscal year 
2011. CBP also recently received approval to increase the miles of 
airspace available for Unmanned Aircraft System (UAS) operations 
performed by the Office of Air and Marine (OAM) along the southwest 
border, enabling CBP to deploy UASs from the eastern tip of California 
extending east across the border into Texas.
    We have significant results to show for these initiatives. During 
the first 9 months of fiscal year 2010, CBP seized nearly 2.8 million 
pounds of drugs, encountered and arrested over 520,000 inadmissible and 
illegal aliens, and seized more than $64 million in currency. Compared 
to previous years, CBP has seen the overall apprehensions of illegal 
aliens decrease significantly, from our highest point of over 1 million 
apprehensions in fiscal year 2000, indicating that fewer people are 
trying to cross the border.
    We are not, however, resting on these successes; alien smuggling is 
one of many enduring challenges along the southwest border that CBP 
continues to combat. Along our Nation's borders, CBP has the primary 
responsibility to attack these challenges in ways that are smart, 
tough, and strategic. Defeating transnational criminal organizations 
that smuggle aliens and drugs is a top priority for CBP and we continue 
to develop effective strategies to disrupt and dismantle their 
organizations and distribution networks. Today I will describe in 
detail some of the programs that CBP has in place to address this issue 
specifically.
                 new resources on the southwest border
    President Obama recently requested $600 million in supplemental 
funds for enhanced border protection and law enforcement activities, 
and announced the deployment of up to 1,200 National Guard troops to 
the Southwest border to contribute additional capabilities and capacity 
to assist law enforcement agencies.
    These additional resources will enhance the ability of CBP and our 
partner agencies to execute our missions, including combating alien 
smuggling. The supplemental funding would allow CBP to hire an 
additional 1,000 Border Patrol agents and 30 CBP officers, create 20 
new canine teams, and launch two new UASs. In addition, the deployment 
of 1,200 National Guard personnel to the southwest border will aid CBP 
agents and officers on the ground, providing critical surveillance 
support to CBP's counter-smuggling operations, as CBP recruits and 
trains additional officers and agents to serve on the border in the 
long term. Along the southwest border, the National Guard has had an 
integrated effort with a counternarcotics mission for over two decades, 
with 300 National Guard troops already working with interagency 
partners. Although not a part of the supplemental request, an 
additional $100 million of existing CBP resources shall be repositioned 
to higher priority replacement and repair of fences to enhance physical 
infrastructure along the Southwest border.
    In addition, CBP and other DHS components are dedicating additional 
resources to the Tucson Sector along the Arizona border, which has 
become a particularly busy corridor for smuggling activity. As part of 
this deployment of resources, over 300 additional Border Patrol agents 
and CBP officers will be deployed to the Tucson Sector, in addition to 
technological assets such as six CBP aircraft (which include four Astar 
light observation helicopters and two Huey Medium lift/utility 
helicopters), 36 thermal imaging binocular units, and three trucks 
equipped with detection scopes. These deployments will strategically 
increase the resources available to counter smuggling in the busiest 
smuggling corridors.
              office of alien smuggling interdiction (asi)
    Within CBP, OFO's Office of Alien Smuggling Interdiction (ASI) 
works to deter, detect, and disrupt illegal migration to the United 
States and increase criminal prosecution of smugglers and human 
traffickers. ASI has created a structure to share information regarding 
migrant smuggling, trafficking in persons, and clandestine terrorist 
travel within CBP as well as with other law enforcement agencies. In 
cooperation with the Human Smuggling Trafficking Center and the 
National Targeting Center, ASI focuses on migratory trends, 
specifically human smuggling and trafficking-related issues. ASI 
coordinates alien smuggling interdiction efforts between multiple 
components including Passenger Analysis Units, Regional Carrier Liaison 
Groups (RCLG), Immigration Advisory Program (IAP) and the Fraudulent 
Document Analysis Unit to increase CBP's effectiveness in identifying, 
analyzing, assessing, and responding to migrant smuggling threats. In 
addition, ASI actively promotes a National public awareness campaign at 
POEs aimed at identifying cases of human trafficking through the 
distribution of multi-lingual information cards and posters at all CBP 
POEs. To assist suspected victims of trafficking, CBP Officers use a 
subtler approach by discreetly providing an information card directly 
to the traveler.
    In conjunction with ASI, and under ASI oversight, RCLGs comprised 
of specially-trained CBP officers were established and operate out of 
the Honolulu, Miami, and New York airports. RCLGs provide real-time 
worldwide response to human smuggling and trafficking by providing 
points of communication and coordination between carriers, immigration 
authorities, and other DHS entities. They employ advanced targeting 
techniques and utilize intelligence shared by carriers and other 
liaisons, to identify inadmissible aliens prior to boarding U.S.-bound 
flights from foreign ports of departure. The RCLGs also work in 
conjunction with CBP's National Targeting Center to identify and deny 
boarding to passengers that are a potential security threat or 
inadmissible to the United States.
               partnerships with the government of mexico
    The Border Patrol has collaborated with the government of Mexico on 
a number of bilateral initiatives to combat alien smuggling. Programs 
include the Operation Against Smugglers Initiative on Safety and 
Security (OASISS), the Mexico Interior Repatriation Program (MIRP), the 
Alien Transfer Exit Program (ATEP), Border Safety Initiative (BSI) and 
Humanitarian Campaigns. These programs are focused on prosecuting 
offenders, breaking the smuggling cycle, and saving lives. 
Collectively, they aid in the overarching effort to improve the safety 
and security of the border.
 operation against smugglers initiative on safety and security (oasiss)
    OASISS is a bi-national coordinated effort designed to prosecute 
alien smugglers through the Mexican judicial system when the smuggler 
does not meet prosecutorial guidelines set by the U.S. Attorneys 
Office. Conducted in cooperation with Mexico's Attorney General's 
Office (PGR), through OASISS, select alien smuggling cases that are 
declined by United States Attorney's Offices are subsequently turned 
over to the government of Mexico for prosecution under Mexico's 
judicial system. Since its inception on August 17, 2005, the OASISS 
program has generated 2,122 cases and led to 2,435 principals being 
presented to Mexico for prosecution.
              mexico interior repatriation program (mirp)
    The Mexican Interior Repatriation Program is a joint CBP and 
Immigration and Customs Enforcement (ICE) initiative established in 
coordination with the government of Mexico. Under the MIRP, aliens 
apprehended from high-risk areas of the Sonora Desert during the peak 
summer months are voluntarily repatriated to the interior of Mexico, 
closer to their homes or points of origin. MIRP is designed to break 
the smuggling cycle by removing participants from the immediate control 
of smuggling organizations, and also serves as a deterrent to entering 
the high-risk area of the Sonora Desert. MIRP prioritizes the humane 
treatment of detainees throughout the removal process and reflects our 
mutual commitment to strong and effective enforcement of both nations' 
immigration laws.
    While ICE is the lead agency for MIRP, the Border Patrol is 
responsible for processing and screening eligible participants, 
providing transition centers, and medically screening participants to 
fly on ICE-chartered flights. MIRP 2010 began on June 1, and during the 
month of June, 7,697 Mexican nationals were returned to the interior of 
Mexico.
                   alien transfer exit program (atep)
    ATEP is an on-going program that supports the concept of ``breaking 
the smuggling cycle'' by allowing for the transportation of aliens out 
of an apprehending Border Patrol Sector for subsequent removal to 
Mexico through an adjacent sector. The program is designed to deny, 
disrupt, and dismantle the ability of alien smuggling organizations 
operating in the participating sectors, by separating aliens from 
organized smugglers and establishing consequences for illegal entry. 
ATEP was initiated by the San Diego, Yuma, and El Centro Sectors in 
February 2008 and has since expanded to Tucson and El Paso. As of June 
30, 2010, a total of 73,266 detainees have been removed via ATEP.
                     border safety initiative (bsi)
    The Border Patrol's Border Safety Initiative's (BSI) focused on 
reducing injuries and preventing deaths along the southwest border, 
many of which are linked to human smuggling. The Border Patrol's Search 
Trauma and Rescue (BORSTAR) teams are located at every Border Patrol 
Sector along the southwest border, and are specially trained for rescue 
and emergent medical situations. Additionally, there are agents cross-
trained as Emergency Medical Technicians or First Responders who act as 
a force multiplier, enhancing our medical proficiency capabilities. In 
fiscal year 2009, the Border Patrol recorded 1,312 rescues along the 
border. Additionally, 64 Rescue Beacons have been erected in strategic 
locations to enable illegal aliens to contact the Border Patrol when 
they are in distress and need medical assistance. Lastly, Public 
Service Announcements are broadcast in Mexico, warning of the dangers 
of illegally crossing the border as well as dangers posed by smuggling 
organizations.
                         humanitarian campaigns
    The Border Patrol has two humanitarian campaigns underway aimed at 
educating potential migrants from Mexico and Central America regarding 
the threats that endanger human life when illegally crossing the 
southwest border and the dangers of human trafficking. ``No Mas 
Cruces'' (No More Crosses on the Border) and ``No Te Enganes'' (Don't 
Be Fooled: You Could Be the Victim of Human Trafficking) demonstrate 
our commitment to helping those who may unknowingly find themselves in 
a situation where they are being exploited by smugglers and 
transnational criminal organizations. The campaigns, which run in 
various media outlets, consist of television ads, radio ads, and 
billboards, as well as grassroots marketing initiatives.
                               conclusion
    Chairman Cuellar, Ranking Member Miller, and distinguished Members 
of the committee, thank you for this opportunity to testify about the 
work of U.S. Customs and Border Protection, and particularly about our 
efforts concerning alien smuggling. The border is a dynamic environment 
and we will continue to strive to meet the demands of today as well as 
face the challenges of tomorrow. I look forward to answering your 
questions at this time.

    Mr. Cuellar. Recognize Mr. Goddard to summarize his 
statements for 5 minutes.

 STATEMENT OF TERRY GODDARD, ATTORNEY GENERAL, STATE OF ARIZONA

    Mr. Goddard. Thank you, Mr. Chairman. Chairman Cuellar, 
Chairman Thompson, Ranking Member Miller, and Members of the 
committee, likewise for me, it is a pleasure and an honor to be 
able to address you with this distinguished company and on an 
issue that is just critical to my State, Arizona, and to the 
southwestern border. I appreciate your time and attention to 
this matter.
    As I am sure the committee knows, Arizona has an 
unfortunate distinction. We are a corridor State. Approximately 
one-half of the drugs and human beings that are illegally 
smuggled into the United States comes through our borders or 
through our State. As the attorney general for the last 7\1/2\ 
years and Arizona's top law enforcement official, it has been 
my priority to go after and fight border crime, especially 
alien smuggling, so I am particularly pleased to see you 
address this subject today particularly.
    I would like to talk to little bit about the lessons that 
we have learned in fighting human smugglers and how I believe 
Congress can be of significant assistance in zeroing in on the 
problem and giving us some important resources to do something 
to move the bar.
    The Chief left a minute and a half on the table. Can I take 
that as well? Thank you, Mr. Chairman. I will try not to.
    My strategy has been very simple; the Chairman mentioned it 
in his opening remarks. It is to follow the money. We are very 
money conscious in the State of Arizona, and the illegal 
profits from drug trade, from human smuggling have been our No. 
1 objective. We have been able through a number of techniques 
to disrupt the flow of funds illegally going out of the country 
and to seize assets that have been used by the smugglers.
    This approach has been very successful in Arizona at 
breaking up smuggling rings, and I recommend it to the country, 
something that they could take advantage of. I appreciate GAO 
analyzing parts of our efforts and making some recommendations 
to ICE along that line.
    Unfortunately, misstatements abound about the southern 
border, and I think we need to focus on the facts. They are bad 
enough. As the Justice Department said last year, the drug 
cartels constitute the greatest organized crime threat to the 
United States. I certainly agree. They are definitely the most 
immediate threat to the security of my State of Arizona.
    Although violent border crime on the Arizona side of the 
border is down, and I think that sometimes gets lost in the 
rhetoric that we have about these issues, we know that serious 
crime and violent crime have skyrocketed in Mexico. That 
certainly is reason for concern.
    Over the past 8 years, investigators from my office, along 
with our law enforcement partners, have investigated wire 
transfers that profit that are used to pay for human 
trafficking. We have learned an awful lot about that, and I am 
not going into the details unless there are questions. But I 
think the bottom line is that we have been able to distinguish 
between the massive amount of legitimate wire transfers going 
across the border and the corrupt ones that deal specifically 
with human smuggling.
    We have used some very specific law enforcement 
techniques--damming warrants, geographical targeting borders, 
and other aspects of our anti-racketeering laws to seize wire 
transfers as they are made, to disrupt the operation. We have 
gone from hundreds of millions of dollars being wired into the 
State of Arizona to virtually nothing today. So I know we have 
disrupted it, but we need to expand that effort.
    We basically have been able to find investigative leads 
through our efforts and have therefore been able to close drop 
houses, to learn how the smugglers work, and to apprehend many 
of the aspects of their operations.
    We have seized approximately $20 million in cartel assets. 
We have arrested hundreds of human smugglers and corrupt money 
wire agents. We have seized used car lots, travel agencies, and 
drop houses. We have shut down 22 businesses engaged in money 
laundering.
    Just this year we reached a very important agreement with 
Western Union, the largest money wire company in the world. 
From that we are going to get important data that has been 
denied us in the past, and $94 million, approximately, to help 
fight the crimes on the border. Fifty million of that is going 
to be a specific fund for State and local law enforcement in 
the four Border States. I believe that is a great step forward 
in our efforts to fight border crime. It is not enough, but it 
is a very good start.
    I have five items that I would like to in 35 seconds talk 
to Congress about being of a major help to us in stopping and 
dismantling the alien smuggling. I would just summarize them. I 
would be happy to go into greater detail.
    The first one is to target the drug cartels. We need to 
focus to operations. The great work that is being done by ICE 
and Border Patrol, I believe, needs to go further and 
absolutely go after the criminal organizations that make it 
possible for human beings to come across a very difficult 
border.
    Second, go after the money. That, I think, is fundamental. 
These are business operations that we are talking about here. 
They depend upon their income. People do not work for the 
cartels because they love the work. They do not work because 
they were religious zealots. They do it because they are very 
well paid. If we can cut off the money flow, we will do more 
than anything else, I believe, to stop the violence that we 
have on the border.
    Third, please follow Arizona's lead. We have spent over 8 
years working to perfect the details of how to find the illegal 
money operations. We know how to do it. Our Federal partners 
have been in and out of the partnership, but we encourage a far 
greater effort to try to stop the wire transfer movement of 
money illegally cross the border.
    Very quickly, fourth and fifth, anticipate the next moves. 
I would like to go into, if we had time, some of the things I 
think the cartels are about to do in terms of moving money, but 
the most important is stored value instruments. Now, Congress 
has demanded that Treasury and others come up with regulations 
for the movement of money through stored value instruments 
across the border. It still hasn't happened. It has been way 
too long that this very large hole has existed in our 
international money transfer operations, and it needs to be 
closed immediately.
    Fifth, we need resources. I would suggest at the very 
beginning that Congress think of matching our $50 million that 
we put on the table now for State and local with at least 
another $50 million of Stonegarden funds to help us expand the 
reach and to go after these border crimes.
    I thank you very much for your time and attention today.
    [The statement of Mr. Goddard follows:]
                  Prepared Statement of Terry Goddard
                             July 22, 2010
    Mr. Chairman, Members of the committee, it is an honor to appear 
before you today to give my perspective on alien smuggling and criminal 
cartel operations along the Southwest border. It is important to be 
clear at the outset that alien smuggling operations are just one of a 
diverse line of businesses operated by the Mexican criminal cartels, 
which I consider the most immediate and serious threat to the security 
of the Southwest border. For this reason, before getting into the 
specifics of alien smuggling, it is important to understand the broader 
scope of the cartel problem.
                            cartel violence
    As I am sure you are aware, the level of violence from the Mexican 
cartels has been accelerating for nearly a decade. But what we have 
seen in the last 3 years is an alarming increase in open, brazen, and 
deadly violence just south of our border. I stress south to dispel any 
suggestion that Arizona itself is a dangerous place for law-abiding 
people. It is not. In fact, violent crime within our State has dropped 
nearly 20 percent in the last 5 years. People who suggest otherwise, 
either purposefully or naively, are misinformed and further confuse an 
already complex situation.
    Nevertheless, in Mexico, the cartels have killed more than 22,700 
people since 2007. This alarming level of violence warrants much more 
serious attention from our country than it has received. To appreciate 
the scale of this carnage, it is useful to compare the recent death 
tolls in Mexico with those in actual war zones:
  <bullet> Mexican cartel killings in the last 3 years alone exceed the 
        combined number of Afghan troops, American troops, coalition 
        troops, and civilians killed during the entire 9-year course of 
        the Afghan war.
  <bullet> Cartel killings in Mexico are also more than five times the 
        number of American soldiers lost in 9 years in Iraq.
    Of particular concern to border States like Arizona, this problem 
is worse in Mexican border towns:
  <bullet> Killings in Juarez, Chihuahua (directly across from El Paso) 
        are over 750 percent higher than the Mexican national average.
  <bullet> In Nogales, Sonora--a significant port of entry for U.S.-
        Mexican trade and the counterpart to our own Nogales, Arizona--
        killings in 2010 are on a pace to shatter last year's record 
        breaking murder rate there.
    Equally disturbing are the attacks on Mexican democracy and law 
enforcement:
  <bullet> Just last month, the leading gubernatorial candidate in 
        Tamaulipas and several members of his staff were assassinated.
  <bullet> Those killings came on the heels of the attempted 
        assassination of the Police Chief of Puerto Penasco, a popular 
        destination for Arizona tourists.
    But lest you think this is simply a border problem, the Department 
of Justice believes the cartels have active business operations in over 
200 cities throughout the United States.
                           arizona's response
    As Arizona Attorney General, the fight against cartel crime has 
been a top law enforcement priority. My strategy has been to follow the 
money--the flow of cash that finances cartel operations. When possible, 
we have intercepted suspicious wire transfers and seized cartel assets.
    My office has been particularly successful using this approach to 
break up human smuggling rings. Over the last 8 years, we have demanded 
access to a host of wire transfer transactions involving Arizona. When 
we analyzed the data, we saw obvious patterns that helped us quickly 
distinguish between legitimate wire transactions and suspicious ones 
that were likely tied to payments to coyotes (the people who transport 
persons illegally across the border) for human smuggling.
    For example, until recently, most legitimate wire transfer 
companies in Arizona wired more money out of Arizona than into it. This 
is because throughout most of the last two decades, the majority of 
wire senders were new or temporary workers who came to Arizona in good 
economic times and wanted to wire portions of their pay either back 
home to their families or to creditors. As a result, most of the 
person-to-person wires in the State involved small amounts of money--
usually between $100 to $200.
    As we started to investigate human smuggling drophouses and looked 
at how the smugglers were getting paid through wire transfers, we saw 
distinct patterns. At certain wire transfer locations--mostly agents of 
Western Union--we saw unusual levels of money being transferred to a 
single location in larger than average transactions. In contrast to the 
vast majority of legitimate businesses that sent more money out of 
State than they received, at these corrupt locations money was coming 
in at rates up to 100 times higher than it was going out. For instance, 
in 2005 a single location in central Phoenix received and paid out over 
$12.8 million in person-to-person transactions in excess of $500 each.
    When we tracked these transactions more closely, we confirmed that 
the recipients of these wires were coyote agents. Upon receiving the 
wire transfer, agents would return to a drop house and release a 
smuggled alien.
    Using damming warrants and other judicial tools under our State 
anti-racketeering laws, we began to seize these criminal transfers as 
they were made, thereby disrupting the flow of cash to the smuggling 
cartels.
    The results were startling. In 2 years, we:
  <bullet> Seized approximately $20 million in cartel assets;
  <bullet> Arrested hundreds of coyotes and corrupt money wire agents; 
        and
  <bullet> Closed down 22 facilitating businesses that were laundering 
        money generated from alien smuggling.
    More significantly, our efforts were effective at disrupting the 
wire transfers to the cartels. As shown on the graph below, after 2 
years of aggressive actions by my Office, suspicious wire transactions 
into Arizona dropped over 90 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To better appreciate this graph, it is important to understand the 
seasonal nature of human smuggling through the Sonoran desert into 
Arizona. Persons seeking work in the United States are more likely to 
attempt to cross the desert in the winter and early spring when 
temperatures are cooler. Crossings tend to be lower in the hot and dry 
summer months. Northbound crossings also tend to drop late in the year 
when many workers return to their families for the holiday season. This 
seasonal pattern results in what law enforcement refers to as the 
``coyote curve,'' and can be seen in the level of money wire transfers 
in 2004, before we escalated our actions.
    My office's damming warrants and asset seizures occurred primarily 
in February, 2005, and February, 2006. As the graph shows, we 
dramatically reversed and ultimately ended suspicious money transfers 
into Arizona.
    Unfortunately, the cartels are nimble, and they responded quickly 
to law enforcement action. After Arizona cracked down on suspicious 
wire transfers, the cartels changed their business model and started 
asking sponsors of smuggled persons to wire smuggling fees to cartel 
agents just south of the Arizona border and outside of our office's 
jurisdiction. Upon confirming receipt of the funds telephonically, the 
coyotes would then release the smuggled person.
                        western union settlement
    Which brings me to my office's recent and historic settlement with 
Western Union.
    During and after the time we were executing our damming warrants, 
we continued to try to work with money transmission companies, 
including Western Union, to enlist their help in stopping the flow of 
money wired to the cartels. Unfortunately, these efforts were not 
always successful. We found ourselves repeatedly in court with Western 
Union in particular.
    In February of this year, however, I reached a milestone settlement 
with Western Union. The company pledged $94 million in new private 
sector resources for the fight against border crimes, especially money 
laundering.
    The settlement included $21 million to cover Arizona's lengthy and 
extensive investigation and litigation costs; $19 million in new 
Western Union anti-money laundering initiatives; $4 million for a 
court-appointed monitor to ensure Western Union complies with the 
settlement terms and to recommend improvements in Western Union's AML 
programs; and, most significantly, $50 million to fund a four-State 
Southwest Border Anti-Money Laundering Alliance aimed at attacking 
border crime.
    Western Union also agreed to provide Arizona and the other border 
States' law enforcement with unprecedented near-real-time access to 
data on wire transfers along the--border, including certain locations 
deep into Mexico. This means that we can now track more of the payments 
between sponsors and the alien smuggling cartels.
    I am especially pleased that once we settled with Western Union, 
the other money wire companies voluntarily agreed to provide us with 
the same data. We can now be confident in our ability to track 
significant wire transfers within the southwest border area. The 
initial data we have received promises a rich field of investigative 
leads. We are working with ICE, CBP, DEA, IRS, and local law 
enforcement throughout the border region to penetrate as deeply as 
possible into the cartel structure.
                partnership with mexican law enforcement
    Our country cannot successfully fight Mexican drug cartels alone. 
We need a stronger and more effective Mexican law enforcement partner. 
In this regard, we have recently enjoyed much better cooperation with 
the Mexican government. The week after our settlement with Western 
Union, I traveled to Mexico City to meet with Mexican Attorney General 
Arturo Chavez Chavez and other leaders in the Mexican Justice 
Department. I also met with leadership from the SSP, the federal 
police, and the Mexican Congress. I explained to them how we had been 
able to follow and disrupt the flow of money to the cartels, as well as 
the importance of disrupting that flow in the fight to dismantle their 
operations.
    I left my meetings in Mexico with renewed confidence that the 
Calderon administration recognizes the threat that cartel warlords pose 
to the rule of law in Mexico and even to the success of democracy 
there. I am convinced that leadership within the Calderon 
administration is genuinely committed to intensifying the fight against 
the cartels.
    Indeed, several recent cooperative actions between U.S. and Mexican 
law enforcement give me hope for the future of joint bi-national law 
enforcement actions. First, using Merida Initiative funds, my office 
has helped train over 400 Mexican state and federal prosecutors as that 
country works to improve its low criminal conviction rates. Working 
with fellow members of the Conference of Western Attorneys General, we 
have trained a total of 1,200 Mexican prosecutors.
    Moreover, the flow of case-specific information between our 
countries has improved and is starting to bear real fruit. For example, 
in April, I joined Under Secretary of Homeland Security John Morton and 
United States Attorney Dennis Burke in announcing Operation Plain 
Sight, which resulted in the arrests of 47 members of a human smuggling 
ring operating on both sides of the Arizona-Mexico border. The 
simultaneous arrests of the kingpins of these operations in Mexico and 
Arizona would not have been possible without our new, strong, and 
highly productive relationships with Mexican law enforcement that is 
genuinely committed to fighting the cartels.
                     expansion of the cartel threat
    I caution again, however, that the cartels are very quick to adapt. 
Like any successful organized crime enterprise, they are on the prowl 
for new business opportunities. Recent reports from Mexico suggest that 
the cartels are diversifying their business operations and posing a 
more serious and immediate threat to international commerce. In the 
last year, the cartels have engaged in increasingly brazen criminal 
acts directed at international trade, including siphoning significant 
amounts of oil from pipelines, hijacking trucks carrying international 
cargo, and buying multinational trading companies to help launder their 
profits. These new criminal activities target the international 
business community and expand the cartels' reach, making them more 
difficult to attack.
                the need for a stronger federal response
    As I stated in a letter to the President earlier this month,\1\ 
cartel crime warrants much more Federal attention and response than it 
has received to date. I agree with Attorney General Holder that the 
cartels pose ``a national security threat.'' Indeed, I would go 
further: The growth in cartel size, strength, sophistication, and 
brutality is the most immediate actual threat to the security of 
Arizonans and many other Americans.
---------------------------------------------------------------------------
    \1\ A copy of Attorney General Goddard's July 8, 2010 letter to 
President Obama is attached to this written testimony as Exhibit 1.
---------------------------------------------------------------------------
    While I believe that leadership within the Departments of Homeland 
Security and Justice understands this threat, dismantling the cartels 
has not been raised high enough as a National priority.
    Despite the staggering levels of cartel violence immediately across 
our border, the cartels' demonstrated ability to penetrate our border 
defenses, and the direct threat that cartel power poses to trade with 
the United States, Federal spending on the fight against the cartels 
remains well less than 1 percent of our National spending on the wars 
in far-away Afghanistan and Iraq.
    I have called upon the President to launch a major, multi-national, 
law enforcement initiative aimed first and foremost at identifying 
cartel warlords and bringing them to justice by every means available. 
Only through coordinated effort of the Departments of Justice, Homeland 
Security, and Treasury, working closely with State and local law 
enforcement and the criminal justice forces in Mexico, can we hope to 
prevail.
    Breaking up these cartels and restoring the rule of law within 
Mexico would not only bring better security to the border region, but 
also would greatly assist Mexican efforts to stabilize their economy 
and improve the conditions that compel so many Mexican citizens to seek 
work illegally in the United States. It would also restore safety and 
confidence to the many legitimate businesses (including tourism and 
agriculture) that seek peaceful trade between the United States and 
Mexico.
    Our Government unquestionably has the capability to bring the 
cartel warlords to justice. It is imperative that this Congress provide 
Federal agencies and law enforcement on both sides of the border with 
the resources to defeat the cartels. Current Federal funding targeting 
cartel operations is a tiny fraction of the profits the cartels are 
making from illegal activities.
    I believe Congress should develop both short- and long-term 
responses. In the short term, Congress should help Arizona and the 
other southwest border States in our efforts to disrupt cartel 
operations that cross into our country. Specifically, I ask you to fund 
a dollar-for-dollar Federal match of the border law enforcement grants 
awarded by the Southwest Border Anti-Money Laundering Alliance. The 
Alliance was created as a result of my settlement with Western Union. 
As I mentioned, the Alliance currently has $50 million from Western 
Union to award to State and local law enforcement grants to combat 
border crime. That amount will be helpful, but it pales in comparison 
with the cartels' resources. A Federal match would immediately double 
the Alliance's effectiveness and provide immediate help in combating 
the cartel threat.
    In the longer run, I urge the Congress to adopt and fund a much 
more substantial campaign against the cartel threat than what we see 
today. We must specifically identify cartel warlords, attack them with 
no less than the intensity applied to mafia kingpins in the 1920s, and 
ensure that Mexican law enforcement and military have the tools they 
need to capture them, bring them to justice, keep them in prison, and 
dismantle their organizations.
    We must anticipate the cartels' next moves, which are expected to 
include money laundering through international ATM locations and the 
use of new devices, such as stored value instruments and cards, to 
transport large sums of money across our border.
    I have called on Treasury to enact regulations requiring people who 
transport stored value devices across international borders to declare 
the amounts on the cards, just as they declare any bulk cash (over 
$10,000) in their possession. Border patrol agents must have the 
technology to read stored value cards. Anyone caught failing to 
disclose cards in their possession carrying greater than $10,000 in 
stored value should be subject to serious criminal penalties.
    This committee should also be aware that the cartels seize and hold 
power through a combination of intimidation and corruption of public 
officials. One of the more shocking parts of our anti-cartel efforts in 
Arizona was the discovery of a cartel agent on the staff of one of the 
local prosecutors in a border county. I am sure that this will not be 
the last such double agent we find. The threat of further infiltration 
should be yet another reason to move ahead on this action without 
further delay.
                               conclusion
    We need to recognize the seriousness and proximity of the cartel 
threat to American security and eliminate that threat quickly.
    Perhaps the biggest failure of our National debate on border 
security is that the cartel threat seems to have taken a backseat to 
discussions about immigration. Yet, if we eliminate the cartel 
organizations, the ability of large numbers to illegally cross our 
southwest border would be dramatically reduced. Very few illegal border 
crossers could make the trip across the harsh Sonoran Desert without 
the smuggling cartels who transport them. Crushing the cartels is the 
most effective way to reduce illegal border crossings. And, if we stand 
by while the cartels establish a lawless zone between Mexico's primary 
trade partner and the rest of Mexico, the entire Mexican economy will 
falter, and the present wave of immigrants will become a tsunami of 
refugees.
    No international policy goals are of more immediate interest to the 
people of Arizona than restoring the rule of law in the border region 
and developing Mexico into a stable and prosperous trading partner. 
While the cartels are in power, lawlessness prevails, confidence in 
government suffers, and the dynamic economic growth associated with 
political stability is not possible.
    Our Nation has a long and successful history fighting organized 
crime. Despite the size and sophistication of the cartels' operations, 
I know we have the resources to dismantle their organizations. What is 
lacking is a specific resolve to see the effort to conclusion and the 
resources appropriate to eliminate the threat.
    It is time for Congress and the administration to focus on 
dismantling the criminal cartels to secure our southwestern border. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cuellar. Attorney General, thank you very much.
    At this time I would like to recognize Mr. Stana to 
summarize his statement for 5 minutes.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Okay. Thank you, Chairman Cuellar, Mr. Thompson, 
Mrs. Miller, and Members of the subcommittee.
    I am pleased to be here today to discuss our report on 
alien smuggling, which was requested by the committee and Mr. 
Mitchell and is being released at the hearing today. As you 
know, alien smuggling along the southwest border is an 
increasing threat to the security of the United States and 
Mexico, as well as to the safety of both law enforcement and 
smuggled aliens.
    One reason for this increased threat is the involvement of 
drug trafficking organizations, which collect fees from alien 
smugglers for the use of specific smuggling routes. Also, 
available reporting indicates that some Mexican drug 
trafficking organizations specialize in smuggling special 
interest aliens into the United States.
    The violence associated with alien smuggling has also 
increased in recent years, particularly in Arizona. At today's 
hearings I would like to discuss three main points from our 
report.
    First, although the use of smugglers is increasing, ICE 
investigative resources devoted to alien smuggling along the 
southwest border have remained flat at about 16 to 17 percent 
of available staff years. We found that ICE's investigative 
efforts resulted in hundreds of arrests, indictments, and 
convictions. But we also found that some ICE investigators are 
performing duties that are not consistent with the primary 
mission of conducting criminal investigations.
    In two of four SAC offices we visited along the southwest 
border, ICE has been diverting staff to non-investigative tasks 
like responding to calls from State and local law enforcement 
agencies to transport and process apprehended aliens.
    In 2006 in the Phoenix area, ICE developed a LEAR program 
in which DRO took over responsibility for transporting and 
processing apprehended aliens, thus enabling ICE investigators 
to spend more time investigating. We recommend that that ICE 
study the feasibility of expanding the LEAR program along the 
southwest border and, if found to be feasible, expand it to 
help ensure that ICE investigative resources are used more 
efficiently.
    My second point involves ICE's tepid results in targeting 
and seizing monetary assets of smuggling organizations. 
Although alien smuggling activities generate illicit revenues 
of billions of dollars annually, the value of ICE alien 
smuggling asset seizures has never exceeded $18 million, and 
decreased to about $7.6 million last year.
    One opportunity to improve results involves civil asset 
forfeiture authority, which allows Federal authorities to seize 
property used to facilitate a crime without first having to 
convict the property owner of a crime. We recommended that 
Justice seek the civil asset forfeiture authority it has 
identified as necessary to seize property used to facilitate 
alien smuggling.
    Another opportunity involves assessing the financial 
investigative techniques used by the Arizona attorney general's 
task force--which you have just outlined.
    The task force seized millions of dollars and disrupted 
alien smuggling operations by analyzing transaction data from 
money transmitters to identify those who were complicit in 
laundering alien smuggling proceeds. We recommended that ICE 
conduct an assessment of the Arizona AG's financial 
investigation strategy to identify any promising investigative 
techniques that are appropriate for Federal use.
    Finally, while ICE and CBP have established objectives for 
their alien smuggling programs, they could do more to measure 
progress toward achieving program results. For example, 
although one of the major objectives of its alien smuggling 
investigations is to seize smugglers' assets, ICE does not have 
performance measures for tracking the results of financial 
investigative efforts for these cases.
    As a second example, although the Mexican Interior 
Repatriation Program is aimed at saving lives and disrupting 
alien smuggling operations, ICE does not know its 
effectiveness, because it lacks performance measures for the 
program.
    As a third example, the lack of accurate and consistent 
data has limited CBP's ability to evaluate its alien smuggling 
programs. CBP recognizes the value of systematic program 
evaluations, but has not established a plan with time frames 
for their completion. We recommended that the agencies address 
these shortcomings.
    ICE and CBP took issue with developing performance measures 
for MIRP, citing potential sensitivities. We continue to 
believe that measuring MIRP performance is important and would 
be consistent with the program MOU signed by both the United 
States and Mexico, which calls for evaluation by appropriate 
officials.
    Mr. Chairman, you did mention that over the past few years 
GAO has evaluated alien smuggling activities more than once. In 
fact, we have done it three times in the last 10 years. 
Considering the results and trends shown in these three 
reports, we see some good news and some news that is not so 
good.
    The good news is that ICE's efforts have resulted in 
overall increases in the number of arrests, indictments, and 
convictions for alien smuggling offenses, and increases in CBP 
resources at the border are obstructing some alien smuggling 
routes.
    The not-so-good news is that over the 10-year period, ICE 
still has a long way to go toward stripping away the financial 
assets and infrastructure of alien smuggling operations. 
Despite increased use of smugglers and the potential for 
violence, ICE's resource commitment remains static in this 
area. Moreover, ICE and CBP have not fully evaluated their 
alien smuggling programs to see what is working and what is not 
and whether programs should be improved or eliminated. Clearly, 
more needs to be done to address these issues.
    This concludes my oral statement, and I look forward to 
responding to any questions you may have.
    [The statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                             July 22, 2010
                              gao-10-919t
    Chairman Cuellar, Ranking Member Miller, and Members of the 
subcommittee: I am pleased to be here today to discuss Federal efforts 
to address alien smuggling along the southwest border. Alien smuggling 
along the southwest border is an increasing threat to the security of 
the United States and Mexico as well as to the safety of both law 
enforcement and smuggled aliens. One reason for this increased threat 
is the involvement of drug trafficking organizations in alien 
smuggling. According to the National Drug Intelligence Center's (NDIC) 
2008 National Drug Threat Assessment, the southwest border region is 
the principal entry point for smuggled aliens from Mexico, Central 
America, and South America. Aliens from countries of special interest 
to the United States such as Afghanistan, Iran, Iraq, and Pakistan 
(known as special-interest aliens) also illegally enter the United 
States through the region. According to the NDIC assessment, Mexican 
drug trafficking organizations have become increasingly involved in 
alien smuggling. These organizations collect fees from alien smuggling 
organizations for the use of specific smuggling routes, and available 
reporting indicates that some Mexican drug trafficking organizations 
specialize in smuggling special-interest aliens into the United States. 
As a result, these organizations now have alien smuggling as an 
additional source of funding to counter U.S. and Mexican government law 
enforcement efforts against them.
    Violence associated with alien smuggling has also increased in 
recent years, particularly in Arizona. According to the NDIC 
assessment, expanding border security initiatives and additional U.S. 
Border Patrol resources are likely obstructing regularly used smuggling 
routes and fueling this increase in violence, particularly violence 
directed at law enforcement officers. Alien smugglers and guides are 
more likely than in past years to use violence against U.S. law 
enforcement officers in order to smuggle groups of aliens across the 
southwest border. In July 2009, a border patrol agent was killed while 
patrolling the border by aliens illegally crossing the border, the 
first shooting death of an agent in more than 10 years. Conflicts are 
also emerging among rival alien smuggling organizations. Assaults, 
kidnappings, and hostage situations attributed to this conflict are 
increasing, particularly in Tucson and Phoenix, Arizona. Communities 
across the country are at risk since among those individuals illegally 
crossing the border are criminal aliens and gang members who pose 
public safety concerns for communities throughout the country.
    Within the Department of Homeland Security (DHS), the Immigration 
and Customs Enforcement's Office of Investigations (OI) is responsible 
for investigating alien smuggling. In addition, DHS's Customs and 
Border Protection (CBP) and ICE's Office of Detention and Removal 
Operations (DRO) have alien smuggling-related programs.
    My testimony is based on a May 2010 report we are releasing 
publicly today on alien smuggling along the southwest border.\1\ As 
requested, like the report, my testimony will discuss the following key 
issues: (1) The amount of investigative effort OI has devoted to alien 
smuggling along the southwest border since fiscal year 2005 and an 
opportunity for ICE to use its investigative resources more 
effectively; (2) DHS progress in seizing assets related to alien 
smuggling since fiscal year 2005 and financial investigative techniques 
that could be applied along the southwest border to target and seize 
the monetary assets of smuggling organizations; and (3) the extent to 
which ICE/OI and CBP measure progress toward achieving alien smuggling-
related program objectives. Our May 2010 report also provides a 
discussion of the extent to which ICE/OI and CBP have program 
objectives related to alien smuggling.
---------------------------------------------------------------------------
    \1\ GAO, Alien Smuggling: DHS Needs to Better Leverage 
Investigative Resources and Measure Program Performance Along the 
Southwest Border, GAO-10-328 (Washington, DC: May 24, 2010).
---------------------------------------------------------------------------
    For our report, we conducted site visits and interviews with 
officials in all four of the OI special agent-in-charge (SAC) offices 
along the southwest border. We also interviewed officials with six of 
the nine Border Patrol sectors along the southwest border and 
interviewed officials in all five U.S. Attorney's districts along the 
southwest border. The six Border Patrol sectors were selected based on 
their proximity to OI SAC offices we visited and their varying volumes 
of removable alien apprehensions. In addition, we interviewed the 
Arizona Attorney General and officials with the Arizona Attorney 
General's Financial Crimes Task Force and analyzed relevant court 
affidavits to obtain information on the results of their efforts to 
address alien smuggling in Arizona. We supplemented our interviews with 
analyses of OI case management data (fiscal years 2005 through 2009), 
Justice Department data on the outcome of alien smuggling cases 
presented for prosecution to U.S. Attorneys along the southwest border 
(fiscal years 2005 through 2009), OI and Border Patrol asset seizure 
data (fiscal years 2005 through 2009), and reviews of CBP and ICE alien 
smuggling program documentation. We determined that despite limitations 
in certain data collection and oversight processes that are discussed 
more fully in our May 2010 report, case management, asset seizure, and 
alien smuggling case outcome data were sufficiently reliable for the 
purposes of our report. More detailed information on our scope and 
methodology appears in our May 2010 report. Our work was performed in 
accordance with generally accepted government auditing standards.
 oi work years spent investigating alien smuggling along the southwest 
   border recently increased; opportunity exists to better leverage 
                               resources
    OI work years devoted to investigating alien smuggling along the 
southwest border increased from about 190 work years in fiscal year 
2005 to about 197 work years in fiscal year 2009, an overall increase 
of 4 percent, with hundreds of arrests, indictments, and convictions 
resulting. The overall number of work years decreased from about 190 
work years in fiscal year 2005 to 174 in fiscal year 2008, but 
increased 23 work years from fiscal years 2008 to 2009 primarily due to 
an increase in one office. The percentage of time OI investigators 
spend on alien smuggling investigations, versus other investigative 
areas, such as drugs, has remained steady during this time period at 
16-17 percent. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    DHS's Human Capital Accountability Plan states that DHS is 
committed to ensuring that human capital resources are aligned with 
mission accomplishments and are deployed efficiently and effectively. 
However, in some cases OI investigators are conducting immigration-
related activities that are not consistent with OI's primary mission of 
conducting criminal investigations. Officials from two of the four SAC 
offices we visited told us that OI has been tasked to respond to calls 
from State and local law enforcement agencies to transport and process 
apprehended aliens who may be subject to removal, which diverts OI 
resources from conducting alien smuggling and other investigations. For 
example, according to officials in one SAC office, the equivalent of 
two full-time investigators each week spent their time responding to 
non-investigation-related calls during fiscal year 2009. In 2006, in 
the Phoenix metropolitan area, ICE's DRO developed the Law Enforcement 
Agency Response (LEAR) program, in which DRO took over responsibility 
from OI for transporting and processing apprehended aliens. DRO 
processed 3,776 aliens from October 1, 2008, to May 24, 2009, who 
otherwise OI would have had to process, thus enabling OI agents to 
spend more time on investigations. DRO headquarters officials stated 
that they have discussed expanding the LEAR program beyond Phoenix but 
have yet to conduct an evaluation to identify the best locations for 
expanding the program. By studying the feasibility of expanding the 
LEAR program, and expanding the program if feasible, ICE would be in a 
better position to help ensure that its resources are more efficiently 
directed toward alien smuggling and other priority investigations. 
Therefore, in our May 2010 report, we recommended ICE take such action. 
ICE concurred with our recommendation and stated that as a first step 
in potentially expanding the program Nation-wide, DRO's Criminal Alien 
Division prepared and submitted a resource allocation plan proposal for 
its fiscal year 2012 budget.
alien smuggling asset seizures have decreased since 2005; opportunities 
   exist to leverage additional financial investigative and seizure 
                               techniques
    The value of OI alien smuggling asset seizures has decreased since 
fiscal year 2005, and two promising opportunities exist that could be 
applied to target and seize the monetary assets of smuggling 
organizations. According to OI data, the value of alien smuggling 
seizures Nation-wide increased from about $11.2 million in fiscal year 
2005 to about $17.4 million in fiscal year 2007, but declined to $12.1 
million in fiscal year 2008 and to about $7.6 million in fiscal year 
2009.

                                 TABLE 1.--OI ALIEN SMUGGLING ASSETS SEIZED IN FISCAL YEARS 2005 THROUGH 2009 NATIONWIDE
                                                                  Dollars in thousands
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                             Value of
                                                                                                                                             Currency,
                                                                                                          Total Value of                     Vehicle,
                                             Value of        Value of        Value of                        Currency,                      Vessel and
               Fiscal Year                   Currency        Vehicles     Vessels (e.g.,   Value of Real   Vehicles, and   Value of All     Real Estate
                                              Seized          Seized       Boats) Seized   Estate Seized    Real Estate    Assets Seized    Seized as a
                                                                                                              Seized                       Percentage of
                                                                                                                                           Total Assets
                                                                                                                                              Seized
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005....................................          $4,197          $3,433          $2,427            $691         $10,748         $11,212              96
2006....................................           3,720           3,710           2,055           4,034          13,519          14,220              95
2007....................................           3,432           5,957           4,118           3,433          16,940          17,396              97
2008....................................           1,836           5,275           3,618             818          11,547          12,169              95
2009....................................           1,679           3,280           2,013             140           7,112           7,613             93
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: GAO analysis of OI data.
Note: Values have been adjusted to account for inflation.

    One opportunity to leverage additional seizure techniques involves 
civil asset forfeiture authority, which allows Federal authorities to 
seize property used to facilitate a crime without first having to 
convict the property owner of a crime. OI investigators indicated that 
lack of such authority makes it difficult to seize real estate involved 
in alien smuggling activity. In 2005, we recommended that the Attorney 
General, in collaboration with the Secretary of Homeland Security, 
consider submitting to Congress a legislative proposal, with 
appropriate justification, for amending the civil forfeiture authority 
for alien smuggling. Justice prepared such a proposal and it was 
incorporated into several larger bills addressing immigration 
enforcement or reform since 2005, but none of these bills had been 
enacted into law as of July 2010. According to Justice officials, the 
current administration has not yet taken a position on civil asset 
forfeiture authority for alien smuggling cases. We continue to believe 
it is important for Justice to seek the civil asset forfeiture 
authority it has identified as necessary to seize property used to 
facilitate alien smuggling. Thus, in our May 2010 report, we 
recommended that the Attorney General assess whether amending the civil 
asset forfeiture authority remains necessary, and if so, develop and 
submit to Congress a legislative proposal. Justice concurred with this 
recommendation.
    A second opportunity involves assessing the financial investigative 
techniques used by an Arizona Attorney General task force. The task 
force seized millions of dollars and disrupted alien smuggling 
operations by following cash transactions flowing through money 
transmitters that serve as the primary method of payment to those 
individuals responsible for smuggling aliens. By analyzing money 
transmitter transaction data, task force investigators identified 
suspected alien smugglers and those money transmitter businesses that 
were complicit in laundering alien smuggling proceeds. ICE officials 
stated that a fuller examination of Arizona's financial investigative 
techniques and their potential to be used at the Federal level would be 
useful. An overall assessment of whether and how these techniques may 
be applied in the context of disrupting alien smuggling could help 
ensure that ICE is not missing opportunities to take additional actions 
and leverage resources to support the common goal of countering alien 
smuggling. In our May 2010 report, we recommended that ICE conduct an 
assessment of the Arizona Attorney General's financial investigations 
strategy to identify any promising investigative techniques for Federal 
use. ICE concurred with our recommendation and stated that the week of 
April 12, 2010, ICE participated in the inaugural meeting of the 
Southwest Border Anti-Money Laundering Alliance, a body consisting of 
Federal, State, and local law enforcement agencies along the southwest 
border. The main purpose of the meeting was to synchronize enforcement 
priorities and investigative techniques. However, while these are 
positive steps toward combating money laundering along the southwest 
border, it is not clear to what extent these actions will result in ICE 
evaluating the use of the Arizona Attorney General's financial 
investigative techniques.
 oi and cbp could do more to better measure progress toward achieving 
               alien smuggling-related program objectives
    OI and CBP have not fully evaluated progress toward achieving alien 
smuggling-related program objectives. Federal standards for internal 
control call for agencies to establish performance measures and 
indicators in order to evaluate the effectiveness of their efforts. One 
of the major objectives of OI's alien smuggling investigations is to 
seize smugglers' assets, but OI does not have performance measures for 
asset seizures related to alien smuggling cases. Tracking the use of 
asset seizures in alien smuggling investigations as a performance 
measure could help OI monitor its progress toward its goal of denying 
smuggling organizations the profit from criminal acts. Thus, in our May 
2010 report, we recommended that ICE develop performance measures for 
asset seizures related to alien smuggling investigations. ICE concurred 
with the recommendation and stated that ICE is in the process of 
assessing all of its performance measures and creating a performance 
plan.
    In addition, ICE operates the Mexican Interior Repatriation Program 
(MIRP), which removes aliens apprehended during the hot and dangerous 
summer months to the interior of Mexico to deter them from reentering 
the United States and to reduce loss of life. However, ICE does not 
know the effectiveness of MIRP at disrupting alien smuggling operations 
or saving lives because ICE lacks performance measures for the program. 
Thus, in our May 2010 report, we recommended that ICE develop 
performance measures for MIRP. ICE did not agree with this 
recommendation because it believed that performance measures for this 
program would not be appropriate. According to ICE, any attempt to 
implement performance measures for MIRP to emphasize the number of 
Mexican nationals returned or the cost-effectiveness of the program 
would shift its focus away from the program's original lifesaving 
intent and diminish and possibly endanger cooperation with the 
government of Mexico. However, we believe that performance measures 
would be consistent with the Memorandum of Understanding (MOU) signed 
by the United States and Mexico related to MIRP which calls for 
evaluation by appropriate officials. Thus, we believe that measuring 
MIRP's program performance would be consistent with the MOU's intent.
    CBP operates several programs that address alien smuggling, such as 
the Operation Against Smugglers Initiative on Safety and Security 
program (OASISS) in which suspected alien smugglers apprehended in the 
United States are prosecuted by Mexican authorities. In addition, CBP's 
Operation Streamline prosecutes aliens for illegally entering the 
United States in order to deter them from reentering the United States. 
Lack of accurate and consistent performance data has limited CBP's 
ability to evaluate its alien smuggling-related programs. CBP is in 
preliminary discussions to establish systematic program evaluations, 
but has not established a plan, with time frames, for their completion. 
Standard practices in project management for defining, designing, and 
executing programs include developing a program plan to establish an 
order for executing specific projects needed to obtain defined results 
within a specified time frame.\2\ Developing a plan with time frames 
could help CBP ensure that the necessary mechanisms are put in place so 
that it can conduct the desired program evaluations. Therefore, in our 
May 2010 report, we recommended that the Commissioner of CBP establish 
a plan, including performance measures, with time frames, for 
evaluating CBP's alien smuggling-related enforcement programs. CBP 
concurred with our recommendation and stated that it is developing a 
plan that will include program mission statements, goals, objectives, 
and performance measures. CBP stated that it also has begun gathering 
data and holding workshops on developing performance measures for some 
of it programs. However it is not clear to what extent these actions 
will include time frames for evaluating CBP's enforcement efforts.
---------------------------------------------------------------------------
    \2\ The Project Management Institute, The Standard for Program 
Management (2006).
---------------------------------------------------------------------------
    This concludes my prepared testimony. I would be pleased to respond 
to any questions that Members of the subcommittee may have.

    Mr. Cuellar. Mr. Stana, again, thank you for your 
testimony.
    At this time I would like to recognize Ms. Kephart to 
summarize her statement for 5 minutes.

 STATEMENT OF JANICE L. KEPHART, DIRECTOR OF NATIONAL SECURITY 
             POLICY, CENTER FOR IMMIGRATION STUDIES

    Ms. Kephart. Good morning. Thank you, Chairman Thompson, 
Chairman Cuellar, and Ranking Member Miller, and thank you for 
being here, and thank you for the interest in my new mini-
documentary, ``Hidden Cameras on the Arizona Border 2.'' It is 
a privilege also to be here with an esteemed panel.
    I believe my testimony begins with a 2-minute clip of that 
film, and then I have 3 minutes of oral testimony.
    Mr. Cuellar. Sorry. Is your mic on? Just want to make sure.
    Ms. Kephart. I am sorry. Do I need to start over, sir?
    Mr. Cuellar. I think we heard everything, but just to----
    Ms. Kephart. I just was thanking Chairman Thompson, you, 
sir, Ranking Member Miller for being here and for your interest 
in my work and my new mini-documentary, ``Hidden Cameras on the 
Arizona Border 2.'' I believe I am beginning my testimony with 
a 2-minute clip of that, and then I will go into 3 minutes of 
oral testimony. Thank you.
    [Video is played.]
    Ms. Kephart. The 10-minute film, from which you just saw a 
clip, seeks to provide a reality check to all Americans on what 
is really going on in Arizona, featuring hidden camera footage 
of those alien and drug smuggling. This film can be found on 
the Center for Immigration's website at cis.org. The film was 
released nearly a week ago and as of this morning sits at over 
110,000 views on YouTube.
    I began this series of mini-documentaries over a year ago, 
after becoming increasingly alarmed at the growing silence 
about the southwest border, and particularly Arizona. The 
increasing brazenness of drug cartels and gang members that 
commit violent crimes toward Americans was raising the bar on 
National security and public safety issues not just for 
Arizona, but across the Nation.
    I was especially concerned, based on my work on the 
September 11 Commission, about the interest of terrorist groups 
like Hezbollah and al-Qaeda in seeking terrorist travel support 
from alien and drug smugglers for anonymous entry at their 
operatives, especially along the southwest border.
    There were documented cases of both terror organizations 
pursuing this type of travel strategy, an issue that I have 
testified to in prior years before Congress. Yet in Washington 
we were told of a no new fencing policy, proposed cuts to the 
Border Patrol, disinterest in prosecuting illegal alien 
entries, and no replacement program for a failed Secure Border 
Initiative.
    There was also much-ignored requests by Arizona's Governor 
to deploy National Guard, despite the success that over 5,000 
National Guard have provided to an overwhelmed Border Patrol in 
2006 to western Arizona's Yuma sector, helping that sector gain 
operational control and reduce apprehensions by over 94 percent 
in just 2 years.
    During the same period, I began receiving anonymous e-mails 
with hidden camera footage from private citizens in Arizona. 
Over time this footage captured hundreds of illegals crossing 
Federal lands over and into Arizona. The Government was telling 
us that illegal alien apprehensions numbers were down, but how 
did anyone know the true numbers, when so much activity seemed 
to be happening on Federal land, where there was little to no 
Federal law enforcement activity, but only private citizen 
hidden cameras?
    How could it be that the Federal lands seemed less 
protected by Federal law enforcement and private property? What 
seems strange was that the Department of Interior and 
Department of Agriculture, which owned a huge swath of Arizona, 
have known the devastating effect of illegal alien activity on 
its land for years. I learned this definitively through a 
series of difficult FOI requests.
    Yet I am told again and again of the heavy struggles the 
Border Patrol has had in gaining timely access to these lands, 
exasperating environmental and public safety issues, while 
encouraging alien and drug smugglers to use these Federal lands 
as a playground for travel and waste.
    I encourage Congress to do what it can to correct the 
Federal law enforcement access to Federal lands once and for 
all to help contain alien smuggling and drug smuggling prior to 
infiltration into America. If nothing else but that comes from 
this mini-documentary, its making will have been well 
worthwhile, from my point of view. Thank you so much. I look 
forward to questions.
    [The statement of Ms. Kephart follows:]
                Prepared Statement of Janice L. Kephart
                             July 22, 2010
    I am currently the Director of National Security Policy at the 
Center for Immigration Studies (CIS) and a former counsel to the 9/11 
Commission, where I co-authored the monograph 9/11 and Terrorist Travel 
alongside recommendations that appear in the 9/11 Final Report. Prior 
to 9/11, I was counsel to the U.S. Senate Judiciary Subcommittee on 
Technology and Terrorism where I specialized in foreign terrorist 
activity in the United States and worked on oversight issues pertaining 
to border security and counterterrorism with the legacy Immigration and 
Naturalization Service, as well as gained unanimous consent in both 
Houses of Congress for the Federal criminal redress system in place 
today for identity theft. Today I focus on all issues pertaining to 
border security and its nexus to National security. This is my 11th 
testimony before Congress, and I am privileged to be here before you 
today.
    Last year, after becoming increasingly alarmed at a growing silence 
about the southwest border, and particularly Arizona, where Operation 
Gatekeeper in the late 1990s had successfully pushed much of the 
illegal crossings into Arizona, I began a series of documentary films. 
I was especially concerned about the interest of terrorist groups like 
Hezbollah and al-Qaeda's in seeking anonymous entry of their operatives 
along the southwest and northern border. There were documented cases of 
both terror organizations pursuing this type of travel strategy, an 
issue that I had testified to in prior years before Congress.
    At the time, I was concerned that the administration was not taking 
the threat as seriously as it could. It decided not to construct new 
fencing on the southern border; it had not announced a replacement 
program for the Secure Border Initiative; budget proposals reflected 
reduced numbers of Border Patrol agents; and requests for a National 
Guard presence by Arizona's new Governor, Jan Brewer, were ignored 
despite the success the National Guard had helped the Border Patrol 
achieve in 2006 in the Yuma Sector as active ``boots on the ground.''
    During this same period, about a year and a half ago, I began 
receiving anonymous emails with hidden camera footage from the 
southwest border. Over time, this footage captured hundreds of illegal 
aliens crossing Federal lands over and into Arizona, with few ever 
stopped or apprehended by the Border Patrol despite occasional chases. 
To my mind, this footage portrayed a very different reality than 
Washington's conventional wisdom, which was reiterating that illegal 
alien apprehension numbers were down. How could we know numbers were 
down when the only way to know the real activity was not from Federal 
Government apprehensions, but private citizen hidden cameras?
    The apparent absence of the Border Patrol was also striking. This 
was Federal land with known illegal trails that caused environmental 
devastation as well. How could it be that the Federal lands seemed less 
protected by Federal law enforcement than private property?
    ``Hidden Cameras on the Arizona Border 2: Drugs, Guns, and 850 
Illegal Aliens'' is the CIS' second web-based film on the impact of 
illegal alien activity in Arizona. This new 10-minute mini-
documentary--which I produced, directed, wrote, and narrated--features 
footage of both illegal-alien entry as well as alien and drug-
smuggling. It is based on two sources of hidden camera footage 
[SecureBorderIntel.org (Nogales/Casa Grande footage) and 
BorderInvasionPics.com (Coronado footage)], 10 months worth of Freedom 
of Information Act requests including Memos of Understanding between 
the Federal Government entities that own and patrol these lands, and a 
June 2010 border trip I took to southeast Arizona, the Coronado 
National Forest, and the Casa Grande sector highlighted in the film. 
The film is on the CIS website at http://cis.org/Videos/HiddenCameras2. 
Upon conducting document and ``on the ground'' research, alongside 
review of many reels of hidden camera footage, it was hard to avoid the 
conclusion that illegal alien activity is causing severe consequences 
for Arizona.
    The mini-documentary was released at a press conference with Rep. 
Rob Bishop (UT-1) on July 15, 2010. Its views already exceed 100,000 
just on youtube.com. The film was featured for 2 days on FOX News and 
its news affiliates and has been subject of radio interviews and print 
articles. It appears to be receiving a large and grassroots interest, 
and substantial support, for its substantive appraisal of the current 
status of illegal activity in Arizona.
    The Center's first video on the subject, ``Hidden Cameras on the 
Arizona Border: Coyotes, Bears, and Trails,'' (http://www.cis.org/
videos/hiddencameras-illegalimmigration) was released on July 14, 2009 
and has received over 60,000 views to date. A blog as to the Federal 
Government response to that video can be found at http://www.cis.org/
Kephart/HiddenCamerasUpdate. This film focuses primarily on the 
environmental destruction caused by illegal activity on Federal lands, 
highlighting in more detail waste and threat to wild animal life.
    Among the lessons learned from Hidden Cameras 2 is that illegal 
activity and violence in Arizona is escalating. Moreover, the Federal 
Government, including the Department of Interior, which owns about 12.5 
million Bureau of Land Management acres in Arizona, as well as numerous 
National parks and wildlife refuges, and the Department of 
Agriculture's Forest Service, which owns the Coronado National Forest, 
has long known the devastating effect of illegal alien activity on its 
land. (See the 2009 Fact Summary Bureau of Land Management--Southern 
Arizona Project Fiscal Year 2009 Fact Sheet).\1\ Yet there is minimal 
Federal law enforcement on these lands, exacerbating the environmental 
and public safety issues while encouraging alien and drug smugglers to 
use them as a playground for travel and waste. Featured in the film is 
a 2004 Federal Government PowerPoint showing the near-complete 
devastation of Organ Pipe National Monument due to illegal-alien 
activity, an Arizona borderland National park.
---------------------------------------------------------------------------
    \1\ http://www.blm.gov/pgdata/etc/medialib/blm/az/pdfs/
undoc_aliens.Par.57669.File.dat/09-SAZ-Proj.pdf.
---------------------------------------------------------------------------
    My FOIA requests also yielded PowerPoints from subsequent years on 
the Buenos Aires National Wildlife Refuge and reports on the Coronado 
National Forest that reiterate the 2004 PowerPoint. Even in 2001, a 
report submitted by the Department of Interior to Congress outlined in 
great detail the issue of increasing illegal activity. The Department 
of Interior knew the extent of devastation from illegal activity on its 
lands, but instead of putting programs in place to work with Federal 
law enforcement or request line-item budgets for law enforcement to 
help curtail the illegal activity itself, the problems have continued 
to deteriorate these lands, making them increasingly unsafe and hurting 
habitats. Two key quotes, which begin the mini-documentary, are as 
follows:

``Thousands of new trails and roads have been created on Federal lands 
by undocumented aliens.
``Certain Federal lands in southeast Arizona can no longer be used 
safely by the public or Federal employees due to the significance of 
smuggling undocumented aliens and controlled substances into the U.S.''

    Some key facts highlighted by my research and the hidden camera 
footage shown in Hidden Cameras 2 include:
  <bullet> In sum, on a total three trails in 60 days between February 
        and March 2010, we counted about 850 illegal aliens, 9 drug 
        mules, 3 guns, and a jeep with drugs careening through the 
        desert.
  <bullet> Coronado trail facts.--735 of the illegal aliens in the film 
        are found on one trail, located in the Tucson Border Patrol 
        sector, 15 miles north of Nogales within the Coronado National 
        Forest. They crossed just one hidden camera in 39 days between 
        February and March 2010 during all hours and in all weather. 
        Not one Border Patrol agent is seen on this trail in 39 days. 
        The illegal men and women travel in groups of 7 to 19. Also 
        found on this trail are burlap remnants and water jugs painted 
        black--evidence of drug smuggling. These cameras were placed 
        purposely close to layup areas, where the illegal aliens await 
        trucks and vans that will smuggle them further into the United 
        States. The layup, shown in the film, is cluttered with tons of 
        trash left behind by those utilizing this one trail. It is 
        estimated that 8 to 16 million tons of trash has been left 
        behind in wildlife reserves like this one.
    Extrapolated out, this one trail, uninterrupted, would yield nearly 
        7,000 aliens illegally entering the United States over the next 
        year. Extrapolate that number out over the thousands of illegal 
        trails Government already knows exists. That could mean there 
        are hundreds of thousands of entries that are never recorded 
        and never make any Government statistic.
  <bullet> Casa Grande trail facts.--A MAC-10 and two assault rifles 
        are carried on foot, along with seven drug couriers carrying 
        packs of 60 pounds or more, and one jeep, all caught on hidden 
        camera video on two cameras located 70 to 80 miles north and 
        west of Nogales. The footage was obtained in January 2010.
    The Federal land area where this footage was captured is west on 
        the I-8 corridor between Tucson and Phoenix, in the Casa Grande 
        Border Patrol sector. This area is known as Table Top, another 
        wildlife-designated area north of the Tohono O'odham Indian 
        Reservation, the Barry Goldwater Firing Range, in the Sonora 
        Desert. In this same area, on April 30, 2010, Pinal County 
        Deputy Sheriff is shot while in hot pursuit of drug cartels. 
        The deputy sheriff survived after a 2-hour search to find him.
    The hidden cameras also picked up about half a dozen load trucks, 
        which are run deep into the desert carrying anywhere between 20 
        to 35 individuals at a time in areas further west on I-8 in 
        March and April 2010, near a large Federal land area known as 
        the Lower Sonora Desert. These loads are weighted down in human 
        cargo, load after load, obvious and unstopped. (My sources tell 
        me that Bureau of Land Management personnel have seen stand up 
        loads trucks with illegals in the back with numbers up to 50.)
  <bullet> Federal Government awareness.--The boots on the ground--the 
        Border Patrol agents, Forest Service and National Park law 
        enforcement agents, the State and local cops--all have known 
        how bad the situation is for years, and are dedicated to their 
        mission. There is no doubt about that. However, through a 
        tedious series of Freedom of Information Act requests, I 
        learned the disconnect between the reality of the Arizona 
        border and Washington rhetoric.
    PowerPoints and reports were obtained that show in intense detail 
        the immense destruction to Federal lands caused by illegal 
        activity. The devastation to Organ Pipe National Monument, 
        about 100 miles west of Nogales, is shown to be near 100 
        percent. The destruction shown is from illegal alien activity 
        that includes fires and vegetation cutting; water pollution and 
        human waste; horse, bicycle, vehicle and foot tracks; rest 
        sites; and trash. Similar reporting was obtained on Buenos 
        Aires National Wildlife Refuge, also west of Nogales, and 
        multiple reports exist on the Tohono O'odham Reservation and 
        Coronado. In fact, there is no place on the Arizona border that 
        does not report extensive destruction from unstopped illegal 
        activity.
    A Federal law enforcement officer that helps patrol public land 
        told me during a recent visit that his agency only has nine law 
        enforcement officers to cover 3 million acres.
  <bullet> The threat to public safety today. Shortly after the Pinal 
        County Deputy Sheriff Louie Puroll was shot on April 30, 2010, 
        in the exact same area, two Latino males were shot to death in 
        what is strongly suspected to be drug cartel feuding. (There is 
        reporting this past week that the heavily violent drug cartel 
        ``Zetas'' are blaming Americans for the deaths of their 
        couriers, and have put out a threat that any armed American 
        found in these Federal lands will be shot.) Nogales' police 
        chief reports that drug cartels are threatening his cops, 
        telling them to look the other way if they are off-duty, or 
        they will be targeted by ``sniper or other means.''
    Moreover, Arizona citizens are not just being threatened, but shot 
        at as well. Within the last few months a grandfather and his 
        grandson were dove hunting off of the I-8 corridor near at mile 
        marker 124 when a truck loaded with illegal aliens came at them 
        at a high rate of speed. The truck began firing guns at the 
        grandfather and grandson. Other citizens report to BLM 
        personnel, according to my sources, that there have been other 
        U.S. citizens chased by people with AK-47 semi-machine guns in 
        that area. In total there have been 13 confirmed shootings in 
        the I-8 area this year to date.
    Border enforcement solutions.--History provides a guide to help 
determine what Federal law enforcement can be successful on Federal 
lands, and what cannot. First, the Border Patrol needs access that is 
relatively free of preapproval to operate on these lands. It can do so 
while embracing environmental stewardship. A recent successful model is 
provided by the Yuma Sector.
    According to the Border Patrol, in January 2004 the Yuma sector 
border lands owned by the Department of Interior and located in far 
western Arizona experienced a huge surge in illegal entries. There was 
no fence. Agents were assaulted with rocks and weapons daily and 
outnumbered 50 to 1. In 2005, more than 2,700 load trucks full of 
aliens and drugs illegally breached that sector. Smugglers were leading 
masses through the desert, leaving the sick and wounded to die. The 
smugglers did not stop for agents when in hot pursuit of vehicles. 
There were many crashes and deaths. By 2005, 138,500 illegal aliens 
were apprehended, and the numbers were still increasing. Today, the 
Yuma sector is clean relative to its past, and the Border Patrol can do 
its job. Apprehensions are down 94 percent to 8,500 in 2008.
    Why and how? In May 2006, President Bush announced Operation Jump 
Start, deploying more than 5,000 National Guard Citizen-Soldiers and 
Airmen to assist the Border Patrol in securing the boundary with 
Mexico. For the first time in 3 years, the numbers of illegal entries 
began to decrease. Governor Napolitano's 2006 Arizona Department of 
Emergency and Military Affairs Annual Report describes the National 
Guard's contribution to the operation as follows.

Operation JUMP START, JTF-AZ Border.--The Arizona National Guard, as 
well as the other Southwest Border States, was tasked to support 
Operation Jump Start in coordination with U.S. Department of Homeland 
Security and the U.S. Customs and Border Patrol (CBP). The Arizona 
National Guard is supporting CBP with up to 2,400 Guardsmen to gain 
operational control of the border.
Since July 2006, the Arizona Army National Guard has provided over 
5,489 Guardsmen to support missions along the international border with 
Mexico.
The Arizona National Guard is in support of the Border Patrol sectors 
of Yuma and Tucson. The missions tasked to National Guard soldiers and 
airmen include: (1) Surveillance; (2) camera operations; (3) vehicle 
maintenance support; (4) aviation support; (5) border infrastructure/
fencing; and (6) Entry Identification Teams along the 389 miles of the 
international border between Arizona and Mexico.

    According to the Border Patrol, in the first 6 months of Operation 
Jumpstart, Guard members provided surveillance, border infrastructure, 
and aviation support, and also helped the Border Patrol save lives of 
those left to die by smugglers, deal with crash sites where there were 
high-speed chases of smugglers, as well as interdict illegal drugs. The 
Guardsmen were not just repairing fences; they were boots on the 
ground, too.
    With administration support in Washington and the National Guard's 
help on the ground, between 2007 and 2008, unprecedented amounts of 
tactical infrastructure arrived as well, including: 7 miles of 
``floating fence'' in Yuma sand dunes; 13 miles of access and vehicular 
fencing along the Colorado River; 9 miles of secondary fencing along 
the San Luis POE; and 68 miles of pedestrian and vehicular fence along 
the Sonoran desert. By the time the operations were complete, all of 
Yuma's 126 miles of border had natural or manmade barriers of some 
kind. Environmental assessments were conducted to assure preservation. 
In addition, there are two new BP stations in Yuma, and mobile 
surveillance sensors with ground radar as well. All of this personnel 
and tactical infrastructure were backed up by criminal prosecutions of 
illegal entrants known as Operation Streamline.
    Operation Stonegarden still funds localities to help assist border 
security, as well, helping Arizona local law enforcement back up 
Federal law enforcement as need be. On July 19, 2010, the 
administration announced $48 million to the southwest border for 
Stonegarden.
    Conclusion.--Our Nation needs to own up to the real dangers to 
public safety and the environmental degradation highlighted by Hidden 
Cameras 2. Multiple deaths, the threats to Nogales off-duty police by 
drug cartels and cross-border feuds; the millions of tons of trash and 
complete devastation of wildlife and forest reserves by the illegal 
trails and the illegal alien and drug smugglers that use them; and the 
lack of adequate Federal law enforcement on Federal land all point to 
the need for an urgent, strong, and steadfast solution.
    However, new fencing has stopped, even though there is a 26-mile 
stretch of desert between Naco and Nogales where there are nearly no 
barriers to hundreds of illegal trails in the Coronado. Technology 
upgrades has stopped with rare replacements. The administration is not 
prosecuting illegal aliens for illegal entry unless they are previously 
associated with violent crime. Guns are being stopped going south but 
we have no land EXIT/departure system in place, nor a plan for one. 
Local officials, as in Arizona, are discouraged from supporting Federal 
immigration law enforcement.
    Yet despite these facts, the July 19, 2010 ``DHS Weekly Report'' 
states that ``The Administration has pursued a new border security 
strategy over the past year and half, making historic investments in 
personnel, technology, and infrastructure.'' The DHS Weekly Report also 
states that 524 National Guard are to be deployed to Arizona on August 
1, 2010 to ``provide support for intelligence surveillance and 
reconnaissance, and counternarcotics enforcement.'' What was not said 
was this National Guard deployment is significantly curtailed in 
numbers and duties compared to a successful 2006 Operation Jump Start.
    Like terrorists, alien and drug smugglers must travel across a 
border in some manner. The most critical strategy to curtail their 
travel across our borders, especially in the southwest, requires an 
``all hands on deck'' approach to border security that does not relent 
until the escalating threats are under control and the border secured. 
All elements--personnel, infrastructure, legal support, a plan for a 
departure system, and policies supporting Federal law enforcement on 
Federal lands, should be the starting point, not the last point, for 
border enforcement against illegal alien and drug smuggling. A multi-
layered approach such as was done in the Yuma Sector assuring strong 
border presence in personnel and infrastructure, a legal system to 
prosecute illegal entry, and support for localities supporting a 
Federal enforcement approach, can together discourage brazen alien and 
drug smuggling and reverse recidivism and criminal activity that 
threatens our environment and public safety. We can make it so, with 
American political resolve, and the programs and resources to back it 
up the way Americans rightfully expect for their homeland.

    Mr. Cuellar. Thank you, Ms. Kephart, very much for your 
testimony.
    I want to thank all the witnesses for their time for being 
here with us. I remind each Member that he or she will have 5 
minutes to question the witnesses.
    I now recognize myself for questions.
    One of the things I was just talking to the Chairman here--
and this is, I guess, a question for Mr. Dinkins--usually when 
Congress passes something for border security, there are two 
things that happened. They talk about fencing, and they talk 
about adding more Border Patrol. Again, with all due respect, I 
am a big supporter of the men and women in green, but let us 
assume that, Mr. Dinkins, we consider this analogy.
    If you have a problem in the community, you have a 
policeman on the corner, which is I am trying to equate that to 
Border Patrol. If the policeman catches somebody, they in turn 
will work with an investigator so the investigator can build a 
case and then prosecute that person. Same thing, at least in my 
opinion, same analogy--Border Patrol, who always catches 
somebody, but you got to build the cases against that 
individual.
    One of the things we have been doing in the past is we have 
been adding more Border Patrol, more Border Patrol. We are 
going to add another 1,200 if the supplemental bill passes, 
which I am in agreement. But we got to have a ratio. If we add 
Border Patrol, what should be the ratio of ICE? Because you got 
to have the investigators.
    If you want to take, as some of the witnesses said, take 
the fight to them, let us say, even to Mexico, and go after 
those organizations, and I believe ICE talking to Secretary 
Morton the other day, I think out of all of the places ICE is 
in the world, I think the biggest area is in Mexico, a small 
number, in my opinion--I think we need to have a lot more--but 
nevertheless, what should be the ratio, if we use that analogy 
about policeman on the beat, the investigator so he can build 
the cases.
    What should be the ratio, in your opinion, for Border 
Patrol and ICE? Because we have been at it since 2004. We have 
gone from 10,000 Border Patrol to 20,000. But ICE has pretty 
much stayed over. Given Arizona, for example, was your ratio 
there, if you know that answer, and then the general ratio we 
ought to have?
    Mr. Dinkins. Yes, there is. I think it is important to 
remember, you know, while CBP and ICE were created as two 
independent agencies, we really were created to be dependent 
upon one another for our successes. Then that analogy you use 
is very accurate. We are responsible for responding to the 
ports of entry, to cross-border criminal activity, and actually 
taking, hopefully, those seizures----
    Mr. Cuellar. Excuse me, because we have got only 5 minutes.
    Mr. Dinkins. I am sorry.
    Mr. Cuellar. Ratio.
    Mr. Dinkins. Ratio. That is a very good--yes, right now, I 
believe, and this is round figures, we have approximately--if 
we are in Arizona, for example, we have a ratio of, I would 
say, maybe 5,000 armed Border Patrol officers to a ratio of 
maybe 350. I can get you the exact number. It is about 350 ICE 
special agents.
    There does need to be a ratio. If you look at the ratio 
across-the-board for ICE and CBP, it can be a little bit 
deceptive, because we have ICE special agents throughout the 
country in places where there may not be Border Patrol, so the 
ratio for an ICE special agent, and this is from my own review 
and experience over the last 20 years, is probably something 
similar to one to six versus maybe the one to 15 that we have 
between CBP and ICE in the Arizona southern border area.
    Mr. Cuellar. Okay. I would like for you all to develop that 
and come to Congress, because, again, our initial reaction is 
Border Patrol. But you got to have the investigative part, 
because you got to build those cases and, in my opinion, go 
into Mexico, and with the cooperation of the Mexican 
government, and go after those organizations at times. So I 
would ask you to, you know, again, it is that ratio, so we can 
look at that.
    Of course, then, we shouldn't forget that if you add more 
activity down there, more Border Patrol, that is more cases. 
You got to think about probation officers, prosecutors, U.S. 
attorneys, judges, and all that.
    You look at the casework on the borders, on the southern 
border and the judges there, compared to--and I told this to 
Chairman Conyers, got his casework there compared to the 
southern border, and it is a huge amount of casework compared 
to other places. So, one, I would ask you to develop that and 
address--you know, come to the committee later, No. 1.
    The other thing I would ask Mr. Fisher or Mr. Dinkins what 
Mr. Stana talked about. As you know, I am a big believer in 
performance metrics. You have got to have those goals. You have 
got to have those performance metrics so we know if we are 
measuring the results, if we really have results.
    I am not interested in performance measures that measure 
activity, you know. That is useless--well, I shouldn't say 
useless, but it is more important to look at what are the 
results from getting there.
    I would ask you to sit down with GAO, if you all would, 
talk to Secretary Morton. We really need performance measures 
from both of you all to make sure that we are measuring the 
right thing. So I know you all have some performance measures, 
but I would question if we are measuring the right things on 
that. That is very important. I would ask you to do that.
    The other thing I would ask you all--so you saw what 
happened with Merida yesterday with the GAO report. Same 
thing--here we are putting a lot of money to help Mexico, and 
we still don't have the right measures. So the measures are 
going to be very, very important to look at.
    The last thing before my time goes, I would ask Mr. Fisher 
this. I am a big believer, and I am trying to think of the 
correct--is this Operation Streamline?
    Chief Fisher. Yes, Mr. Chairman.
    Mr. Cuellar. Okay. I believe it started--I think they had a 
little bit in Yuma, little bit in Del Rio. We started in 
Laredo. We pushed for Laredo. It has got a little bit in South 
Texas.
    Basically, Members, as you know, there is a 1954 law that 
basically says that anybody that comes into the United States 
violates the law, Federal law. I know in the past, basically, 
we have gotten some of those folks and sent them back.
    We are now asking them to spend a little bit of time to 
show that we mean business. I know more of our liberal folks 
are saying we shouldn't be doing that, but again, if there is a 
violation when they come in, I think we ought to look at it. 
Some judges give them 30, 60 days.
    It depends on that, because again, it does create work for 
our U.S. marshals, for our U.S. attorneys. Even though they 
might want to focus on the big picture, I really think that if 
you look at the numbers and give them the numbers, what is 
happening in Del Rio, what is happening in Laredo with the 
crossings in that area since we implemented Operation 
Streamline?
    Chief Fisher. Generally, Mr. Chairman, directly to your 
question, those areas and what they are seeing with respect to 
activity has been declining, as we have seen across the 
southwest border.
    Mr. Cuellar. But in particular, compare them to other 
areas.
    Chief Fisher. Right. Compared to other areas, they are 
seeing less activity than, for instance, the central corridor, 
which we are talking in Arizona, for instance. I don't know to 
what extent that level of activity has dropped as it relates 
specifically to one consequence, which is Operation Streamline, 
which is Federal prosecution.
    One of the things that Commissioner Bersin has directed CBP 
to look at is don't look at these individual consequences 
within a vacuum. We have about 12 different types of 
consequence programs that we are evaluating and measuring, but 
don't do it individually as a program.
    Take a look and see to what extent each one of those 
programs gives us those outcomes as you mentioned, Mr. 
Chairman, and where should they be applied specifically on the 
threat, the levels of activity, and the geography which 
dictates where our vulnerabilities are and the extent to which 
those criminal organizations are going to continue to try to 
exploit us. We are doing that, sir.
    Mr. Cuellar. Okay. Thank you very much.
    At this time I will recognize for 5 minutes our Ranking 
Member, Candice Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    You know, just watching that clip, I think every American 
should take a look at what is happening here. I just was 
thinking here that the complexity of what is happening on our 
border, in regards to border security and who is coming through 
our border, is changing. It is not just poor folks who are 
coming from other countries that want to come to the United 
States to advantage themselves economically.
    What we have now with these drug cartels, as has been said, 
it is the organized crime threat. I appreciate what the 
Chairman is saying about the resources that we have within our 
country to arrest people, to prosecute them, et cetera.
    I would submit that we need to be thinking a bit about some 
of these folks who are coming here with guns and everything 
else as enemy combatants. They should not be afforded 
necessarily all of the constitutional rights that American 
citizens have and clogging up our entire criminal justice 
system. I think we should think in terms of enemy combatants, 
because they mean us harm. In many ways they can be looked at 
as terrorists.
    I think while we have been busy--preoccupied, I should 
say--looking at what is happening in theater in Iraq and 
Afghanistan, here we have such a serious problem on our 
southern border with the drug cartels that are coming in.
    I would like to address a question to Attorney General 
Goddard. I listened very closely to your testimony, sir, and I 
appreciate the challenges that you have. You mentioned follow 
the money in the organized crime threat. I think perhaps as a 
way to supplement what we are doing with Customs and Border 
Protection, ICE, who are being overwhelmed with what is going 
on down there, do you think we could use some assistance as 
well from the CIA and the FBI?
    I mention that coming from southeast Michigan, where the 
brutal reality, many of the charities that were funding 
terrorist activities came from my region, and we have had great 
success from the previous administration and this 
administration in shutting down many of these charities with 
work from the FBI and the CIA.
    I am just wondering about that, because you are talking 
about stopping the wire transfers, the money transfers. You 
also mentioned about the stored value cards. I believe those 
are sort of prepaid gift cards perhaps through credit card 
companies. Is there a way that we can utilize tools that 
Congress has already passed, whether that is the Patriot Act, 
various types of things, to work with the credit card companies 
to assist in securing our border?
    Mr. Goddard.
    Mr. Goddard. Thank you, Ranking Member Miller. I can't 
agree more that we have a serious problem. I would only caution 
that the things you saw in this film are criminal activities. 
What I believe we need is a very focused criminal response.
    Your point is something that I would really appreciate the 
chance to elaborate on for just a minute, because I have great 
respect for the forces on my right here, for the Border Patrol 
and ICE have really hunkered down in our area, the Tucson 
sector, which is the most difficult part of the border, in my 
opinion.
    They have made major strides, but there are two things, 
really, beyond their control. One is the organized criminal 
activities in Mexico, which I believe are the heart of the 
problem. The people that we saw coming across the desert were 
part of very carefully organized convoys. They may not have 
looked like it, but the timing and the surveillance and the 
technology that goes into those missions, those groups of 
people coming across the border, are very well organized. 
Without the organized criminal back, they would not have been 
able to make that trip.
    Your point about coordination I think it is absolutely 
essential. I have been trying to get the attention of treasury 
agents and others to say it is about the money. If we can get 
the money out of this process, we would do a tremendous amount 
to reduce the violence.
    I believe that those armed guards that you saw with Mach-
10s and with AK-47s and AR-15s and a whole variety of assault 
weapons, are paid by the cartels to do that job. They don't 
love it. They are not religious zealots. They are there because 
they are well-paid. If we can stop the flow of money going 
south, we would do a lot to stop the violence.
    That requires the organized coordination among all the 
majesty and power of the United States Government. You 
mentioned the CIA, the FBI. I am not sure it is a CIA issue, 
but it nonetheless----
    Mrs. Miller. Certainly, the FBI.
    Mr. Goddard. What I would really request from this 
committee is Congress' attention to plugging the holes. It is 
$40 billion we are talking about. We found a small part of it, 
which is the wire transfer portion. We believe almost $2 
billion is moved by illegal wire transfers. We now have the 
information as to where they are, and we have the ability to 
find the hotspots, the places where most of the illegal 
activity is going from.
    Mrs. Miller. So, if I could, because I am running out of 
time. So you do not believe if a drug cartel comes into the 
United States and murders an American citizen, that they should 
be considered to be an enemy combatant? You think they should 
be just tried to the civil criminal courts?
    Mr. Goddard. I believe the criminal law covers the 
situation without going as far as you are saying.
    I have been talking for years about the danger that the 
cartels place to civil authority in Mexico and eventually 
perhaps to the United States, if we are not vigilant and going 
after them now. They are, as the Justice Department has said, 
the most serious organized crime threat to the security of the 
United States.
    That seems to me like it should be in neon letters 
somewhere in the capital to focus our attention on finding the 
leaders of the cartels and putting them out of business, 
because whether it is a military or criminal operation, I can't 
make that distinction. But I believe criminal law is 
sufficient, if we can work vigilantly on the focused target of 
taking down the cartels.
    Mrs. Miller. I appreciate that.
    My time has expired. Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mrs. Miller.
    At this time, I recognize the Chairman of the committee, 
Mr. Thompson.
    Mr. Thompson. Thank you very much.
    Mr. Stana, I appreciate the work of the committee. GAO--you 
do a good job. You looked at this issue three times.
    Mr. Stana. Actually, we have looked at it many more times. 
We have----
    Mr. Thompson. In recent times.
    Mr. Stana. The first report I recall was in 1977.
    Mr. Thompson. Okay. Well, let us say the last three 
reports. You identify what you thought were the strong points 
and weak points. I want to talk a little bit about the weak 
points. Can you share that again with the committee?
    Mr. Stana. Yes, we were talking about basically three weak 
points. You know, the first one dealt with their response to 
getting at the money, which the attorney general just spoke to. 
We are just not doing enough to focus attention on the money 
trail.
    The second had to do with performance measures, which I 
know Mr. Cuellar can appreciate the value of. The third was the 
resource commitment that ICE has given to the alien smuggling 
operation.
    You know, when we looked at this in 1997, less than 10 
percent of the people coming into the country used a smuggler. 
Now it is a solid majority that are using a smuggler--maybe a 
vast majority.
    Mr. Thompson. Thank you.
    Mr. Dinkins, you heard Mr. Stana talk about the money 
issue. Can you tell me why ICE discontinued its relationship 
with the attorney general's office in pursuing these 
individuals with money orders? We had an on-going program, and 
it stopped. What happened with that?
    Mr. Dinkins. Sir, well, we were heavily involved initially. 
We still to this day actually do have more cases with the 
attorney general's task force. So we haven't actually stopped 
and pulled out. The approach that they took, which is to 
identify a vulnerability and then try to mitigate and eliminate 
that, is really is the essence of what we do at ICE and our 
financial programs. So that methodology we continue to employ 
across all of our investigative programs.
    Mr. Thompson. So are you still in the task force?
    Mr. Goddard. Mr. Chairman, can I address that question, 
please?
    Yes, ICE is an active member of the task force today. There 
was a period of about 3, 4 years where they did not participate 
in the task force. I would encourage this committee to direct 
additional participation, because right now it is at the agent 
level.
    They are certainly helpful in the beginning of analysis of 
this massive amount of data that our agreement with Western 
Union is going to provide--is providing, is providing this week 
for the first time. So we have access to all wire transfers on 
the border on both sides of the border, and the analysis of 
that traffic, I believe, can be key to cutting off the illegal 
movement of funds across the border using wire transfer.
    Mr. Thompson. Chief Fisher, good to see you in Washington. 
You were a gracious host when I was out there a few weeks ago.
    How many new agents would you be receiving either in the 
appropriation or the surge for the Tucson sector?
    Chief Fisher. There will be approximately 300 CBP officers 
who will be part of that surge, which includes CBP officers and 
Border Patrol agents.
    Mr. Thompson. Mr. Dinkins, how many new investigators would 
you get based on the new CBP numbers?
    Mr. Dinkins. Sir, it fluctuates, but I believe there is 
right now we have 130 that is going to the entire southwest 
border. I don't have that broken down by sector right with me, 
but I can get----
    Mr. Thompson. So is your testimony that you have enough 
investigators to do your job?
    Mr. Dinkins. Sir, we could always use more investigators. 
As our partners grow, there is more work to be done, and we 
could always use more investigators.
    Mr. Thompson. Well, are you in line to receive more 
investigators with this new announcement announced by the 
Secretary?
    Mr. Dinkins. Yes, we are. We are in line to receive 
additional special agents.
    Mr. Thompson. Investigators.
    Mr. Dinkins. Investigators, yes, sir.
    Mr. Thompson. You are.
    Mr. Dinkins. Yes, we are.
    Mr. Thompson. Well, then somewhere we have a disconnect, 
because some people are saying that is not the case.
    I want you to go back and review it and make sure, because 
one of the criticisms I heard along the border is that in 
effect if we get more CBP individuals and not enough 
investigators for ICE, then the load for ICE almost becomes 
unbearable in terms of being able to do your work.
    I am trying to pursue a line of questioning to get you what 
you need. I know you have to defend your department. They do a 
wonderful job. But if in fact we are surging one area to the 
detriment of another, then we are not getting the best effort 
for the problem we all want to solve.
    Mr. Dinkins. I agree with you 100 percent, sir.
    Mr. Thompson. Mr. Stana, have you looked at that as a 
staffing issue or anything like that?
    Mr. Stana. You know, we realized that the Border Patrol has 
plussed-up way out of--you know, at a greater level than ICE 
has. But, you know, the auditor's question is always not what 
you would do if you had more. The auditor's question is how 
well are you using what you have.
    You know, we note that there are very many hard-working men 
and women at ICE and CBP, and that is not the issue. But the 
issue is you want to make sure they are doing the right work, 
the right investigations, before you go and ask for more.
    In this environment, you know, it would seem to make sense 
that the proportion should be maintained, but I would still 
like to get in there and make sure that they are putting their 
agents on the most risky things and the areas where you are 
going to get the greatest payback before I would throw in 
with----
    Mr. Thompson. So which one of these fine gentlemen's agency 
is not providing the proper performance measurements that you 
think are important to be able to measure?
    Mr. Stana. Well, one thing we would like to see is a 
comprehensive strategic planning framework, where you have the 
risk assessments done, we know which areas are most vulnerable 
to the Nation and are of the most consequence and to be able to 
see that ICE is putting its resources on those investigations, 
on those areas.
    We see that these investigative areas will remain static 
for years. We have always devoted so many resources to drug 
trafficking within certain--so many to general alien 
investigations, so many to financial investigations. When you 
go out and do talk to the agents, many of them are very solid 
investigations. Some of them are not.
    Mr. Thompson. Mr. Dinkins, are you prepared to provide that 
information to the committee?
    Mr. Dinkins. Sir, at this time we are actually--when I came 
on in January as executive associate director, I started a 
process to completely redo our performance measures. We need 
not just to count outputs, and not all arrests are equivalent 
and don't have the same outcome. That is what we are in the 
process of doing now and we hope to implement in fiscal year 
2111 to be able to start a baseline and then move into the 
2012.
    Mr. Thompson. Well, by October 1, would you provide the 
committee whatever those performance measures are?
    Mr. Dinkins. Yes, sir, we can provide those.
    Mr. Thompson. Thank you.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time I will recognize the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    After reviewing that video that we all witnessed a few 
moments ago, I absolutely find it incomprehensible that the 
Department of Justice could be suing the State of Arizona on 
this issue of enforcing Federal immigration law.
    Mr. Dinkins, my question to you as an official from ICE, 
can you explain to me your understanding of what constitutes a 
sanctuary city?
    Mr. Dinkins. As reference to a sanctuary city, they are 
often considered locations that--I guess in general terms, so I 
don't have an exact definition and nor is, I believe, there a 
legal definition--but somewhere local law enforcement would not 
be interested in assisting other law enforcement in identifying 
and removing criminal aliens.
    Mr. Dent. Either they might refuse to cooperate or 
discouraged or prohibited from cooperating.
    Mr. Dinkins. Absolutely. By their----
    Mr. Dent. By their local city councils and mayors.
    Mr. Dinkins. Yes, sir.
    Mr. Dent. So if you are familiar with the locations of the 
sanctuary cities, and I am sure you know which ones they are, 
how have you modified your enforcement efforts to account for 
this utter lack of local cooperation?
    Mr. Dinkins. It can be challenging. However, our focus 
truly is the criminal enforcement and dismantling criminal 
organizations. Generally speaking, even in a sanctuary city, 
when it rises to gang members that we are looking for and other 
criminal organizations, generally speaking, law enforcement are 
still going to assist in that--just not in the civil 
enforcement. So from my area of expertise in the criminal 
enforcement----
    Mr. Dent. Don't you find it troubling that local 
communities would not want to help you, assist you in dealing 
with drug dealers or human smugglers, that they are prohibited 
or refuse? Doesn't that create additional burdens for your 
agents?
    Mr. Dinkins. Generally speaking, in my area it doesn't 
create additional burdens for us--only in the situation where 
we are not actually able to build a criminal case. But it does 
come at a cost.
    Mr. Dent. Do you believe we should have more collaboration 
between local and State law enforcement and Federal immigration 
enforcement?
    Mr. Dinkins. I think we actually have some very strong 
partners out there throughout the country, State and locals, 
partners. We have some great relationships, so I think that we 
are actually on a pretty solid basis.
    Mr. Dent. Have you received and given or are you aware of 
any special guidance given to Federal immigration personnel 
with regard to enforcement efforts in these sanctuary cities?
    Mr. Dinkins. No. It is more of a--there is no policy that 
we would issue. I mean, our job still remains the same, 
regardless of what the posture is of the local community.
    Mr. Dent. So then, how are you dealing with cities that 
harbor illegal aliens, including criminal aliens that you were 
referencing, that fail to report their presence? They make 
arrests routinely, these local law enforcement entities. They 
make these arrests, and if they fail to share information that 
would be valuable to you, what do you do?
    Mr. Dinkins. Well, I can tell you that it is a, I would 
say, risky business that they are participating in, and I say 
that because today you may arrest somebody, you may not know 
their status, and the next day they may create a felony and a 
crime against one of the individuals in your community. So we 
still go after, we still--regardless of what the posture is of 
the local community, our job remains the same wherever you are 
at in the United States.
    Mr. Dent. So it seems that they are an impediment to 
efforts, then?
    Mr. Dinkins. I wouldn't say an impediment, because it is 
our job, and we are going to do it with without the local 
assistance. So it doesn't impede us from doing it.
    Mr. Dent. But their assistance certainly would be helpful, 
one would think.
    Mr. Dinkins. In many cases we utilize them to collaborate 
with local law enforcement.
    Mr. Dent. Now, Attorney General Goddard, does Arizona have 
sanctuary cities?
    Mr. Goddard. Mr. Chairman, Congressman Dent, I am not aware 
of anywhere the policy is not to cooperate fully with the 
Federal officials.
    Mr. Dent. Even in Phoenix and Tucson?
    Mr. Goddard. Especially Phoenix and Tucson.
    Mr. Dent. Okay. Good. How will the new Arizona law change 
local law enforcement practices in Arizona's communities?
    Mr. Goddard. Mr. Chairman, Congressman Dent, difficult to 
say. There is a very extensive article in today's Washington 
Post that takes one of the police chiefs, who is clearly in the 
hot seat. He is in Benson, Arizona, which is--you could say 
that sort of the focus of a lot of the traffic that you saw in 
the film goes through that area.
    His evaluation, and I have to defer to the people on the 
ground, was that he was confused by it. He thought there were 
some Federal enforcement issues that he did not fully 
understand, and he didn't think his officers did. But he 
thought his job would be pretty much unchanged by the passage 
of Senate Bill 1070 in terms of the investigations and the 
issues that they were dealing with in Benson, Arizona.
    Mr. Dent. Could you also explain the disconnect between the 
Federal Government filing a lawsuit to block implementation of 
Arizona's immigration law and refraining from taking action 
against so-called sanctuary cities that refuse to cooperate 
with Federal Government on immigration matters?
    Do you understand that disconnect? I mean, a lot of us are 
troubled by this disconnect that this Federal Government is 
suing your State----
    Mr. Goddard. Right.
    Mr. Dent [continuing]. At the same time seems to be 
ignoring the fact that there are sanctuary cities that don't 
particularly--are not interested or refusing to collaborate 
with ICE.
    Mr. Goddard. Mr. Congressman, I can only speak for my 
experience in Arizona, where we encourage all law enforcement 
to cooperate with the Federal authorities and to do their 
utmost to turn in criminal aliens when they are in their 
organization or when they are under arrest. So I am afraid I 
don't understand the question as to what the disconnect is that 
you are referring to.
    Mr. Dent. Well, I mean, doesn't it bother you as the 
State's top law enforcement officer that your State is being 
sued for trying to complement Federal law enforcement while at 
the same time sanctuary cities are given a pass and are being 
ignored by our Justice Department?
    Mr. Goddard. You are speaking throughout the country?
    Mr. Dent. Yes, throughout the country.
    Mr. Goddard. I would stipulate that there is perhaps an 
inconsistency there, Mr. Congressman.
    Mr. Dent. One would think. Thank you.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    At this time I recognize the gentleman from New Jersey, Mr. 
Pascrell.
    Mr. Pascrell. Well, Mr. Chairman, it was my understanding 
when I got the invitation to this hearing today, as all the 
committee Members had, what we were going to discuss. I am glad 
that the attorney general of the State of Arizona has come 
before us in the most professional way.
    I know that you have to defend, basically, what the 
officials in your State--that is your job and your sworn duty. 
But I must say you have presented it in a very, very 
professional way to the questions that we should be talking 
about. That is smuggling.
    I did not know we were coming here to portray liberals, 
conservatives, Democrats, Republicans, and their reactions to--
I am not going to be trapped--I am not going to be trapped into 
that situation. This is something for all of us, not just 
Arizona. I am reluctant to criticize your State about that for 
a number of reasons.
    Although I believe that not only we should be concerned 
with smuggling, but the exploitation of these folks that are 
coming across the border, and I think the attorney general 
would agree with me on that count. We had 8 years of very 
little work being done to find, arrest employers who hired 
these illegal aliens. So what is good for the goose is good for 
the gander. There is a lot more than simply films to see who is 
coming across the border.
    Let me ask you a question, by the way, Mr. Dinkins. How 
many of these 3,300 people that we are talking about here in 
that period of time which the report focused on have come from 
nations of interest like Afghanistan, Pakistan, Iraq, Iran? How 
many of them have come from those countries of the 3,300?
    Mr. Dinkins. Sir, I don't have any breakdown on that 
specifically. I can look and see if we have captured that 
information, but I don't have that.
    Mr. Pascrell. Mr. Fisher.
    Chief Fisher. Sir, I wouldn't know the breakdown of that 
3,000 as well.
    Mr. Pascrell. Mr. Stana.
    Mr. Stana. No, I don't have the number. I know about 5 
percent of the apprehensions are OTMs, but within that I am not 
sure of the exact number.
    Mr. Pascrell. So we are talking about nations that are 
definitely troublesome to us--worse than that--that some of 
them harbor terrorists. Some of you used the word 
``terrorists'' and I thought maybe we are going to find out 
something we didn't know today.
    Can any one of the panel tell me the terrorists that we 
have captured among those 3,300 people? Does anyone have any 
information along those lines?
    Ms. Kephart.
    Ms. Kephart. Actually, I asked that information in my FOI 
request nearly a year ago, and I was denied that information, 
being told it was too sensitive.
    Mr. Pascrell. Could you get that back to us, Mr. Dinkins, 
if at all possible?
    Mr. Dinkins. Yes, I will.
    Mr. Pascrell. I would appreciate that.
    We have got to have--and I think the attorney general said 
so, and some other people have highlighted--we have to have 
performance measurements. There is no excuse for that, because 
we can't make comparisons. If you are going to have a baseline, 
you know, how are you going to see whether you are doing better 
or doing worse? Simply putting more people on the job does not 
make it necessarily, as Mr. Stana pointed out, accomplish what 
we want to accomplish.
    I am interested also in the trafficking of guns and weapons 
across the border. Mr. Attorney General, can you tell us 
anything about that?
    Mr. Goddard. Mr. Chairman, Congressman Pascrell, I can tell 
you a little. We undertook a couple of years ago, along with 
Alcohol, Tobacco, and Firearms, the prosecution of a number of 
gun dealers who were using straw buyers, specifically 
individuals who signed the forms in violation of Federal law 
and never actually picked up the gun. They had a third party 
come in, choose the gun, and then transport it to Mexico.
    We prosecuted several of those cases successfully. One, 
unfortunately, did not result in a conviction, but we were able 
to seize the gun store proceeds because of the illegal activity 
that it had been involved in. So we are very aware that a very 
large number of the military grade weapons that end up in the 
hands of cartel members, unfortunately, are sold in the United 
States.
    Mr. Pascrell. Thank you.
    Mr. Dinkins, who is doing the smuggling? Who is controlling 
the operations? Is that United States citizens? Is it United 
States nationals? Is it undocumented aliens?
    Mr. Dinkins. Sir, in reference to weapons smuggling?
    Mr. Pascrell. No. In respect to the smuggling of aliens 
across the border.
    Mr. Dinkins. Predominantly, it is foreign nationals, and 
that is one of the challenges in addressing the financial 
component of the millions and billions of dollars that are made 
from human smuggling is most of that is generated outside of 
the United States from various organizations, who have a small 
piece of the puzzle, who are providing smuggling routes all the 
way from Africa and Asia all the way through to ultimately the 
United States, earning money along the way.
    Mr. Pascrell. Mr. Chairman, if I may conclude by simply 
saying that there is no excuse that the attorney general of the 
United States of America has not responded to the requests. We 
know what they need in terms of the seizures, these assets 
seizures. If we don't have the cooperation of the Justice 
Department, that is just not going to happen.
    But I want some parity here. We are going to talk and we 
think that we are going to stop, whether it be a fence, whether 
it be the cockamamie system that they talked, you know, that 
they started to put into operation 5 years ago, which we spent 
so much money on that doesn't work.
    Yes. And suddenly I turned.
    But the point of the matter is we need the cooperation from 
all agencies here. Aliens are not bad people. To portray them 
as that and paint with a wide brush does not bring us closer to 
the solution. So I am here to be of help to the State of 
Arizona, and I am sure all of us are. But there is no 
Democratic or Republican way to solve this problem.
    Mr. Cuellar. Thank the gentleman from New Jersey.
    They will call us to vote in a couple of minutes, so if 
nobody else joins us--there are three Members left; 5 minutes 
apiece and we will, you know. As you know, the first vote is 15 
minutes, so if we can try to stick to the 5 minutes, we will 
cover everybody.
    So at this time I recognize the gentlewoman from Arizona, 
Mrs. Kirkpatrick, for 5 minutes.
    Mrs. Kirkpatrick. Thank you, Chairman Cuellar, and thank 
you for this hearing.
    Chairman Thompson, I thank you again for your trip to 
Arizona. I continue to hear from folks you met with that day 
how appreciative they are to have had an opportunity to talk 
with you about this problem.
    It is a busy time in Arizona, Attorney General. Thank you 
very much for coming to Washington and appearing before this 
committee. As you know, border security and immigration are 
among the most important issues that our country faces right 
now, and growing more and more serious for Arizona. I think we 
are Ground Zero for this issue, and I know we have been talking 
about it for years and years and calling on the Federal 
Government to fix the problem and secure the border.
    I very much appreciate your distinction between border 
violence in Mexico, where it is going up, and border violence 
in Arizona, where it is going down. I think it is important to 
remember that in the context of the discussion. I also really 
appreciate your effort to keep that from spilling into Arizona, 
and I wish that maybe first you would explain the burden on 
State and local law enforcement because of the Federal 
Government's refusal to fix this problem.
    Mr. Goddard. Mr. Chairman, Congresswoman Kirkpatrick, thank 
you very much. Well, first there is cost. The incarceration of 
criminal aliens costs the State literally hundreds of millions 
of dollars every year, and the SCAAP funds that are supposed to 
flow have not. That is a continuing source of both pain--
financial pain, because we have by far the disproportionate 
number of those individuals to hold in incarcerated fashion.
    But it is also a sense of great resentment. When earlier 
the talk about Senate Bill 1070, I think that is kind of a 
touchstone that has led to that reaction in the State of 
Arizona.
    Mrs. Kirkpatrick. I am happy to hear the administration is 
going to start this surge of manpower to the border. To what 
extent do you think that is going to help? Do you think it goes 
far enough? What more needs to be done?
    Mr. Goddard. Thank you, Mr. Chairman, Congresswoman. I 
absolutely support it. We are grateful for the help. What I 
would plead for to this committee and to Congress is that we 
provide the kind of evaluative standards that have been 
discussed in this hearing, the ability to say how you measure 
progress.
    A lot of talk has been made, and I am afraid a lot of words 
have been wasted, talking about securing the border without 
defining what that means. I can't applaud more what the GAO has 
said. We need objective standards.
    I have one. We know who the leaders of the Mexican drug 
cartels are, and unless we can, in jointly working with the 
criminal authorities in Mexico, take those cartel leaders out 
and dismember their organizations--and we have lots of 
experience doing that in the United States going after 
organized crime--we need to do it on a bi-national basis.
    I hope that can be one of the objective standards. Every 
time we arrest and incarcerate a leader in a cartel operation, 
we will have moved closer to real border security.
    Mrs. Kirkpatrick. Thank you. I also appreciate your efforts 
in shutting down the money. I know shutting down the 
wiretapping was a huge step in that direction. I introduced a 
bill that would stop the prepaid cash cards from going across 
the border. I think you said $40 billion is going south. What 
other things do you think we should address to stop that?
    Mr. Goddard. Thank you, Mr. Chairman, Congresswoman. It is 
approximately 40 between human smuggling--I may not be too 
confusing here--human smuggling is maybe a $2 billion industry, 
significant but dwarfed by comparison with drug smuggling, 
which is, according to estimates that I have seen, between 35-
plus. So that is a huge amount of money.
    I believe the combined--the Ranking Member mentioned a 
minute ago combining all the resources of the country. 
Certainly, through the Bank Secrecy Act and other antiterrorism 
efforts, we can find out where this money is flowing, and then 
make every effort to stop it.
    I thank you for your efforts to stop the stored value 
instruments as being one measure of moving money across the 
border. Right now you can take a card that has a stored value 
in excess of $10,000, walk across the border with that, and 
there is nothing in the American law, nothing in U.S. law or 
regulations that make that an illegal act. I think it should 
be.
    Mrs. Kirkpatrick. I heard from the Border Patrol agents 
when I was at the border that they see this happening, and 
there is nothing they can do about it, which is why I 
introduced a bill that--again, thank you very much for your 
testimony.
    Mr. Goddard. It is a gaping hole in our security fabric 
that so much money goes virtually unimpeded across the border 
to the illegal cartels.
    Mrs. Kirkpatrick. I agree.
    I yield back.
    Mr. Cuellar. Thank you, gentlewoman from Arizona.
    This time I recognize my colleague from Texas, Mr. Green. 
Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the witnesses for appearing.
    I especially want to thank those who serve on the front 
line for what you do. It means a lot to us to know that you are 
there, performing a difficult task under exceedingly difficult 
circumstances.
    Mr. Attorney General, if I may, I would like to visit with 
you for just a moment, because there are some things that I 
think we need to put in the record that I am confident I know 
the answer to, but I think it is good to place these things in 
the record.
    Mr. Attorney General, you believe in the Constitution of 
the United States of America, do you not? You do?
    Mr. Goddard. Mr. Chairman, thank you, Mr. Green----
    Mr. Green. Can you just--formality--for my purposes, 
because I have little time.
    Mr. Goddard. May I just say yes or no?
    Mr. Green. Yes, sir, if you would.
    Mr. Goddard. Yes, sir.
    Mr. Green. Okay. I know you do, and I just want it for the 
record. You believe that enforcement of the Constitution is of 
paramount importance, do you not?
    Mr. Goddard. I do.
    Mr. Green. Would you agree that you are duty-bound to 
challenge laws that you perceive to be unconstitutional as they 
relate to your State as the attorney general for the great 
State of Arizona?
    Mr. Goddard. I make every effort to do so, yes, sir.
    Mr. Green. Do you also agree that the attorney general of 
the United States of America is duty-bound to challenge laws 
that he believes to be unconstitutional as they relate to the 
United States of America?
    Mr. Goddard. Congressman Green, you are----
    Mr. Green. I am asking you----
    Mr. Goddard. Excellent questioning.
    Mr. Green. It is an excellent question, and I----
    Mr. Goddard. Fortunately, you are not actually----
    Mr. Green. Excuse me, if I may. It is really a very simple 
question. It is as simple as the question that I posed to you 
as the attorney general for the great State of Arizona. You are 
duty-bound to challenge what you perceive to be 
unconstitutional laws, are you not?
    Mr. Goddard. I am, sir.
    Mr. Green. Why would you not, if you have a difference in 
opinion, because I think the attorney general of the United 
States of America has a similar duty, why would you not assume 
that the attorney general of the United States of America is 
duty-bound to challenge laws that he perceives to be 
unconstitutional as the relate to the United States of America?
    Mr. Goddard. Congressman Green, I believe the attorney 
general of the United States must do, in furtherance of his 
own, everything that he believes necessary to----
    Mr. Green. And pursuant to the Constitution.
    Mr. Goddard. I may disagree with him on interpretation.
    Mr. Green. You can disagree as to what he thinks, but if he 
genuinely is a man of honor, sworn to uphold the Constitution 
of the laws of the United States of America, if he genuinely 
perceives a law to be unconstitutional, does he not have the 
duty to challenge that law, just as you have a duty to 
challenge laws that you perceive to be unconstitutional?
    Mr. Goddard. Congressman Green, if that is his sincere 
belief, he has no choice.
    Mr. Green. So you would also agree, I think, that one of 
the things that separates the United States of America from 
many other places around the world is the way we resolve our 
disputes. We go into a third party. We have the Executive and 
then we have the Legislative and then we have the Judiciary. We 
go into that third branch of Government. We take our disputes 
there. Whether we agree with the results or not, we respect the 
results from the judiciary, do we not?
    Mr. Goddard. Yes, sir.
    Mr. Green. That separates us from so many other places in 
the world, where they use automatic Kalashnikovs, commonly 
known as AK-47s with a muzzle velocity that can cut a person in 
half. They use automatic Kalashnikovs to resolve their 
disputes. We don't resort to that kind of barbaric behavior. 
Some do, but in the main we don't do that.
    The reason I call this to your attention, Mr. Attorney 
General, is because when I hear people saying the attorney 
general should not file a lawsuit, that we ought not be suing 
Arizona, it is wrong to sue Arizona, if the attorney general of 
the United States of America perceives a law to be 
unconstitutional, he is duty-bound to do what he is doing, is 
he not?
    Mr. Goddard. Congressman, the way you phrase this----
    Mr. Green. Is he duty-bound to do this?
    Mr. Goddard [continuing]. The answer is yes. There are many 
things----
    Mr. Green. Yes, okay. Well, I phrased it this way, because 
we want to talk about the Constitution of the United States of 
America. That is what this is all about. If you were the 
attorney general of the United States of America and you 
thought a law to be unconstitutional, would you be duty-bound 
to challenge that law?
    Mr. Goddard. Yes, I would.
    Mr. Green. Why can they not accord the same integrity, the 
same honor, the same measure of truth and veracity to this 
attorney general that we would accord you? Rhetorical question 
you need not answer. Let me----
    Mr. Goddard. Thank you, Congressman.
    Mr. Green. Okay. Finally, let me share this. The gentleman 
from the GAO has indicated that we need a comprehensive plan, 
strategic plan. I think that is the exact quote--comprehensive, 
strategic plan, correct?
    Mr. Stana. Strategic plan framework----
    Mr. Green. All right. Quickly, let us do this. Do you agree 
that in a comprehensive, strategic plan we should deal with the 
guns that flow south?
    Mr. Stana. Yes.
    Mr. Green. Mr. Attorney General, have you made any 
recommendations in terms of what we should do--I read your 
testimony; I didn't see any here--as to what we should do to 
stem the tide of guns flowing south? I know you have taken 
affirmative action, for which I salute you, but there are 
things that we may be able to do to tweak the law.
    Have you made any recommendations? You said you had this 
gun show or gun exhibit or something that you worked with and 
you prosecuted, and you were unable to get at that. But do you 
have recommendations to deal with the guns? I have not heard 
recommendations to deal with the guns. Who has a recommendation 
to do with the guns?
    Mr. Goddard. Mr. Congressman----
    Mr. Green. Let the record reflect that no one has 
responded, which in my opinion means that no one has a plan 
that they are recommending to do with the guns.
    Mr. Goddard. Mr. Congressman, I am just a State official, 
but certainly the straw-buyer problem----
    Mr. Green. Well, you are a State official that--excuse me, 
if I may. You are a State official, but you still recommend a 
means by which we deal with the money transfers. All right, why 
are you now going to be just a State officials when it comes to 
the guns?
    Mr. Goddard. Because I am not an authority on that level of 
a National problem.
    Mr. Green. Well, you were a State official that wanted to 
follow the money----
    Mr. Goddard. I think I may be----
    Mr. Green [continuing]. Until you decided----
    Mr. Goddard. The straw buyers are a significant problem----
    Mr. Green. I understand.
    Mr. Goddard [continuing]. And I hope that this Congress can 
take a better----
    Mr. Green. I understand. I understand. My time has expired, 
but I do want to thank you. Listen, I believe you to be an 
honorable man--all of you. So please accept what I have said as 
one American who wants to uphold the Constitution that makes 
this country the great Nation it is.
    Thank you very much.
    Mr. Cuellar. Thank the gentleman from Texas for his line of 
questions.
    Members, they called us for votes. We have got about 12 
minutes, 12 minutes 30 seconds. Again, I want to make sure that 
we give Mr. Mitchell and Ms. Jackson Lee the time for the 
questions. I am going to ask Members to please try to stick to 
the 5 minutes so we can go, because it would be very difficult 
to come back after votes.
    So at this time I will recognize the gentleman from Arizona 
for 5 minutes. Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chairman. Thank you for 
allowing me to join this battle.
    The question I have is with Mr. Stana. Before I begin, I 
just want to thank you again and also Mike--Mr. Dino--for the 
work that you have done and your team over at the GAO for all 
the hard work they have put into this report.
    Mr. Stana. Thank you, sir.
    Mr. Mitchell. As you know, I am especially concerned about 
the epidemic of drop houses. We have literally hundreds of them 
in the Phoenix metro area, and they are dangerous magnets for 
violent crime. The GAO report notes that authorities have been 
frustrated by the existence of a loophole in the Federal law 
that prevents them from using civil forfeiture to seize homes 
used as drop houses.
    Under current law they can use civil forfeiture to seize 
vehicles, even airplanes, even votes, but not the actual houses 
that are being used for drop houses. As you know, earlier this 
week Representative Brian Bilbray and I introduced a bipartisan 
bill to close that loophole and allow authorities to use civil 
forfeitures to these houses whose homeowners knew or should 
have known that their house is being used as a drop house.
    I was hoping that you might be able to explain a little 
more detail about why this extra authority is so important.
    Mr. Stana. It is important, because oftentimes alien 
smuggling organizations use these drop houses to hold the 
aliens that are not owned by a member of the drug smuggling 
organization. They are rental properties. In order to establish 
that the person who owns the rental property is fully 
knowledgeable about what is going on in that house and is part 
of this criminal activity is a very high bar.
    By going to a civil asset forfeiture law, you would not 
have to establish that the owner of the property was fully 
aware of the illegal activity going on inside and was complicit 
in it. You could seize the property rather than charge the 
owner, and then at a later time you would sort out his 
complicity or non-complicity.
    It is extremely important in this case. You may have read 
in that report that a SAC in the Phoenix district had a map on 
his wall when we visited with 300 pins in it--city of Phoenix, 
300 pins--knew that each pin represented a stash house that he 
couldn't touch. He said if he had civil asset forfeiture 
authority, he could at least address some of them.
    Mr. Mitchell. One last question very quickly. The GAO 
recommends that ICE examine investigative techniques employed 
by the Arizona attorney general and his task force. 
Specifically, did GAO recommend that ICE study the way in which 
the task force followed financial transactions at wire transfer 
companies like Western Union? Can you explain how the GAO 
thinks this information could be used by Federal law 
enforcement to disrupt alien smuggling?
    Mr. Stana. We discussed with the ICE people in the field 
how they used their financial investigative resources, and what 
we found is they do it in a rather unsophisticated way, sort of 
episode-by-episode, case-by-case.
    What Arizona has done is mine the data, much like credit 
card companies do, to see if people who are abusing maybe 
stolen credit cards, to identify patterns and connect dots, and 
to see where some illegal activity may be. That is the kind of 
activity that is proactive, mines the data and these criminal 
activities by certain structured transactions, which we think 
is really important.
    Mr. Mitchell. Thank you.
    Just one last question to the attorney general. Again, 
thank you for taking time to be here. I was wondering if you 
had any recommendation for both how specifically you think ICE 
could make use of both the techniques that you developed as 
well as the wire transfer data that you have secured from 
Western Union and other wire transfer companies.
    Mr. Goddard. Thank you, Mr. Chairman, Congressman Mitchell. 
I just want to urge in the most urgent terms that this 
committee and this Congress make it clear that this is--GAO has 
recommended a study.
    What we do works. What we have done in the State of Arizona 
all by ourselves has identified millions of dollars of illegal 
money transfers, and we have seized many of them, and we have 
changed behavior. ICE can profit from that immediately.
    We now from Western Union have all of the information on 
both sides of the border involving wire transfers. Using our 
statistical analysis, we can determine where the hotspots are. 
From there we can find out where the most likely illegal 
transfers are. Then we can go forward and either seize them or 
use it as an investigative lead.
    I really want to emphasize this, because one of the great 
ways that we have been able to use the wire transfer 
information is to follow the money. Literally, you follow it to 
the drop house and from the drop house to the leader of the 
local organization and from the leader of the local 
organization to the people who are controlling them, often in 
Mexico.
    We can take down the whole organization. That is what we 
need, together with ICE, to be doing border-wide. We have been 
doing it in Arizona, but the cartels simply move their 
operations to other States or other parts of the country where 
they are not being watched.
    So it has to be a border to border--I mean, excuse me--the 
entire border, the whole 2,000 miles, needs to be subjected by 
ICE, I would submit, to an analysis of all the wire transfers. 
That will stop the illegal movement of money by wire. It won't 
stop it all, because they have other methods at their control, 
like stored value cards, but let us cut out the movement 
illegally of money across the border by wire.
    Mr. Mitchell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank the gentleman from Arizona.
    Members, we have 6 minutes and 42 seconds, and I do want to 
finish with the two remaining Members. I would ask them to try 
to stick to the 5 minutes.
    At this time I recognize by attendance order. It will be 
the gentlewoman from California, Ms. Sanchez, and then we will 
finish with Ms. Jackson Lee from Texas.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I have a question. Can someone on the panel--I don't know; 
maybe it is Homeland Security or maybe it is CBP--tell me how 
many known terrorists have we captured crossing from the 
northern border?
    Chief Fisher. Congresswoman, I do not know off the top of 
my head. I can find out.
    Ms. Sanchez. More than one?
    Chief Fisher. I beg your pardon?
    Ms. Sanchez. More than one? I am thinking specifically of 
the millennium bomber----
    Chief Fisher. Yes.
    Ms. Sanchez [continuing]. That came across Seattle and came 
to Los Angeles. Okay. Do you know how many have come from 
across the southern border?
    Chief Fisher. Not so in my head, ma'am, no.
    Ms. Sanchez. Okay. If you could give me those numbers, 
because I think it is a ``none'' from the southern border that 
we found, and I think it is several from the northern border.
    I also want to ask you, because people have been saying 
that the Federal Government has done nothing to work on this 
issue of people coming into our country without the right 
documents or illegally. Can you tell me what, Chief, what you 
have seen and what ICE has seen in the last, let us say, 3 or 4 
years with respect to our efforts?
    Or has Congress helped you in any way? Have we put more 
positions on for you? Have we given you more money? Have we put 
more pilot programs? Have we done nothing?
    Chief Fisher. No, you have not done anything, and yes to 
all of the above. We thank you for the support.
    Ms. Sanchez. For example, I think over the last 5 years, 
more or less, you have grown from about a 4,000-person entity 
to maybe about 20,000 positions. Is that correct?
    Chief Fisher. Yes, ma'am.
    Ms. Sanchez. A majority of that is placed at the southern 
border, is it not?
    Chief Fisher. That is correct, yes.
    Ms. Sanchez. Okay. What about ICE? What new programs, what 
new monies--have we done nothing to try to stem this illegal 
crossing going on either on the southern or northern border or 
at all our coastline, which is immense, where people are coming 
in through the airport?
    Mr. Dinkins. Absolutely not, ma'am. This committee and the 
Federal Government have given ICE a lot of resources. Just this 
last year we have sent 160 additional agents to the southwest 
border alone, so we have done great. We have been receiving 
funding for border enforcement security task forces, BEST task 
forces. Ten of those are on the southern border, so there has 
been a lot of action in the last few years, absolutely.
    Ms. Sanchez. Thank you, gentlemen.
    Now, I will probably ask the same question of our good 
friend from the GAO and more importantly, maybe, that question 
of has it been effective.
    Mr. Stana. The Government has put countless billions of 
dollars into border enforcement--you know, more people, 
fencing, cameras, sensors and so on. The apprehension rates 
have gone up, so you can't say that nothing has been done. Of 
course, being from the GAO, were always looking for 
opportunities to do things better, and there are opportunities 
to do things better. But it is not accurate that nothing has 
been done.
    Ms. Sanchez. Thank you. I appreciate that.
    I yield back the rest of my time, Mr. Chairman.
    Mr. Cuellar. Thank you very much. Thank the gentleman from 
California.
    At this time I recognize our last questioner, Ms. Jackson 
Lee from Texas. Thank you.
    Ms. Jackson Lee. Chairman, thank you very much. As we are 
monitoring the floor for the number of Members voting, let me 
rush to my questions and follow the line of questioning from 
the gentlelady from California and ask both ICE and Customs and 
Border Patrol, if you will--I call it Patrol, but Protection, 
CBP--to provide me what you are doing with all those resources.
    Mr. Fisher? Why did we get the GAO study that indicates 
that we have been less than altogether effective with respect 
to alien smuggling?
    Chief Fisher. Well, coached that way, ma'am, I would not 
agree that we are not effective with the combination of that 
personal technology and infrastructure over the year. We have 
seen success. We have seen efficiencies. We do have metrics on 
how we compare and contrast that. Given the time, I won't go 
into the detail, but----
    Ms. Jackson Lee. So what do you take issue with the GAO's 
presentation?
    Chief Fisher. Well, to suggest that with all the increased 
resources that U.S. Customs and Border Protection has done 
nothing and hasn't seen any increases, whether in efficiency or 
effectiveness, I would not agree with that. We have----
    Ms. Jackson Lee. So point to some examples.
    Chief Fisher. Some of examples is level of activity, which 
means that the amount of people that are trying to enter this 
country in between the ports of entry, those detected entries 
have gone down. The number of people that we have----
    Ms. Jackson Lee. Can you provide the committee those 
numbers? I don't know if they are in your testimony, and I 
apologize. I would like to see those numbers on a graph.
    Chief Fisher. Absolutely.
    Ms. Jackson Lee. Let me ask the gentleman from ICE. I thank 
you for your service. I think it is important to see concrete 
numbers, because we all have pushed legislation to increase 
your numbers.
    Gentleman from ICE, let me first of all thank you for 
understanding that rays don't work and you have a new procedure 
in dealing with employers. But I understand that you have been 
called by local jurisdictions to run here and run here. How can 
you leverage yourself to be more effective----
    Mr. Dinkins. Yes, and that is----
    Ms. Jackson Lee [continuing]. On alien smuggling?
    Mr. Dinkins. Yes, ma'am. That is really where the GAO 
report hits at home is that we do have some responsibilities 
within the Office of Investigations, Homeland Security 
investigations at ICE that probably could be handled better 
over detention and removal. We have been making stages. I have 
commissioned a study to see not only along the southwest 
border, but a lot of those need to be done across the entire 
United States.
    Ms. Jackson Lee. Will you have within a period of time--and 
I yield to the Chairman for the time frame--a report on the 
measures that you have made and actual success graphs showing 
increase in dealing with alien smuggling, increase in the 
success of capturing alien smugglers? Can you provide us with 
that?
    Mr. Dinkins. Yes, I can.
    Ms. Jackson Lee. Let me move to the GAO, because we are--
what is the crucial point that you want to make to us as 
members of what should be leveraged in terms of the resources?
    Mr. Stana. I would say three things. First and foremost, I 
would look to advancing their financial investigative 
techniques. I think you have got to attack the money streams 
that go to these criminal organizations.
    Secondly, I would make sure that the people that they have 
on the roles are doing their job the most effective way that 
they can. All too often we see instances where they are doing 
non-investigative work. Hiring, training, and employing 
criminal investigators is expensive, and you don't want them 
just papering suspects.
    The third thing is I think it is crucial that they get 
performance measures in place so they can see how well they are 
doing, what is working, what is not, what you should improve, 
and what you just ought to kill.
    Ms. Jackson Lee. Thank you.
    Mr. Goddard, I am glad that you are here and sorry that you 
have to sit in the hot seat. I can very enthusiastically 
disagree with Arizona on its approach and on its law. I believe 
that you cannot help but engage in racial profiling even as you 
have amended the law. I assume that--are you counsel in the 
court as relates to the case that our U.S. attorney, United 
States attorney general has?
    Mr. Goddard. Mr. Chairman, Congresswoman Lee, I am not, by 
rather unusual act of the Governor of Arizona, who wanted to 
take that defense and hire the lawyers yourself, so----
    Ms. Jackson Lee. So she is using outside counsel?
    Mr. Goddard. I recused myself from the defense.
    Ms. Jackson Lee. All right. Well, maybe it is because of 
the integrity that you have.
    But let me just indicate that you have done well on helping 
with the money-laundering issue. My question is if this law was 
to prevail, what role does the attorney general of Arizona have 
in its enforcement? If the law that was passed that I consider 
to be racial profiling, what role do you have in that 
enforcement?
    Mr. Goddard. Mr. Chairman, Congresswoman, an excellent 
question. Obviously, we oversee and work with the county 
attorneys, who are the primary actives in terms of criminal 
prosecution. But this is primarily for the law enforcement on 
the ground, for the officers and the deputy sheriffs. So I 
can't say we have no role, but it would be limited probably to 
receiving complaints, if there were any, as to anyone felt that 
they had been unfairly arrested are treated.
    Ms. Jackson Lee. Will you uphold that component of the 
responsibility vigorously?
    Mr. Goddard. Yes, ma'am, I will.
    Ms. Jackson Lee. Let me just yield back, Mr. Chairman, and 
indicate that the attorney general is correct in his approach 
for challenging what is a vile and unconstitutional approach to 
immigration reform. I believe the Congress has an obligation to 
help you to help the men and women who are before us, those in 
law enforcement, and pass comprehensive immigration reform, and 
pass it now. I yield back.
    Mr. Cuellar. Thank the gentlewoman from Texas, Ms. Jackson 
Lee, for her line of questioning.
    At this time--I see there is time remaining for our votes, 
so we are going to be leaving at this time. But I do want to 
thank all the witnesses for the valuable testimony and for the 
Members for their questions.
    The Members of this subcommittee may have additional 
questions for the witnesses, so I would ask you to, you know, 
please respond as soon as you can. Again, we want to thank all 
of you all.
    To the attorney general, welcome again to the District of 
Columbia, and have a safe trip back.
    To all the witnesses, thank you. We appreciate all the work 
that you do for our great country.
    At this time, hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
